<html>
<title> - THE SECRETARY'S VISION FOR THE FUTURE--CHALLENGES AND PRIORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    THE SECRETARY'S VISION FOR THE FUTURE--CHALLENGES AND PRIORITIES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2014

                               __________

                           Serial No. 113-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-170 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                                Witness

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter From the Air Line Pilots Association International......    13
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California:
  Letter From The Coalition For Humane Immigrant Rights of Los 
    Angeles......................................................    16

                                Appendix

Question From Chairman Michael T. McCaul for Honorable Jeh C. 
  Johnson........................................................    51
Questions From Honorable Patrick Meehan for Honorable Jeh C. 
  Johnson........................................................    52
Questions From Honorable Tom Marino for Honorable Jeh C. Johnson.    52
Questions From Honorable Mark Sanford for Honorable Jeh C. 
  Johnson........................................................    53
Questions From Honorable William R. Keating for Honorable Jeh C. 
  Johnson........................................................    56

 
    THE SECRETARY'S VISION FOR THE FUTURE--CHALLENGES AND PRIORITIES

                              ----------                              


                      Wednesday, February 26, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Broun, 
Miller, Meehan, Duncan, Chaffetz, Palazzo, Barletta, Hudson, 
Brooks, Perry, Sanford, Thompson, Sanchez, Jackson Lee, Clarke, 
Higgins, Richmond, Keating, Barber, Payne, O'Rourke, Gabbard, 
Vela, Horsford, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. Committee is meeting today to hear testimony 
from Secretary Jeh Johnson on his vision and priorities for the 
Department of Homeland Security.
    The committee is under several time constraints this 
morning, including limited availability of the Secretary, and 
scheduling commitments Members may have. For this reason, the 
Chairman will strictly enforce the 5-minute rule for 
questioning witnesses.
    Should Members have additional questions for the witness, 
they will be able to ask--they can't ask during their 5 
minutes, they can submit questions for the record pursuant to 
Committee Rules 7(e).
    The Chairman appreciates Members' cooperation of moving the 
hearing along in an efficient manner. The Secretary will be 
testifying before this committee again in March with the 
release of the fiscal year 2015 budget. I now recognize myself 
for an opening statement.
    Today is the 21st anniversary of the first World Trade 
Center Bombing, which marked the beginning of the War on 
Terrorism. Eight years later, the attacks on 9/11 changed our 
country, and reformed our Government with the creation of the 
Department of Homeland Security. So it is fitting that today 
the new Secretary of the Department, Mr. Jeh Johnson, is here 
to discuss his vision for DHS.
    Sir, your new position is among the most important in the 
Federal Government. You are at the helm of the Department, 
charged with securing this Nation in the midst of evolving 
terrorist threats, shrinking budgets, and persistent management 
challenges.
    I appreciate sincerely, sir, your outreach to me over the 
past few months to discuss our shared concerns about issues of 
National security. I am committed to solving these challenges 
and look forward to working constructively with you in the 
future.
    I just returned from New York City, where I met with the 
new police commissioner, Bill Bratton, and other officials, to 
discuss current threats. Al-Qaeda affiliates continue to target 
the United States.
    Iran's terrorist proxies are present throughout the Western 
Hemisphere. A growing number of ungoverned locations across the 
Middle East and Northern Africa provide safe havens for 
Jihadist networks.
    With the growing concern over lone-wolf attacks, we have to 
adapt to the reality that threats are not diminishing, they are 
evolving. DHS has a major role in identifying and mitigating 
terrorist threats to the homeland, whether from plots directed 
by jihadists, networks abroad, or from individually-inspired 
radicals within our borders.
    The events in Syria are now threatening to become issues 
for us at home. I know, sir, you said in your speech at the 
Wilson Center, that Syria has become a matter of homeland 
security. I agree, and I want to hear what the Department is 
doing to counter this threat to the homeland.
    In addition, the capture over this last weekend of the top 
drug lord, El Chapo Guzman, is a huge win for the United States 
and for Mexico. He is responsible for thousands of deaths, and 
his reach went far beyond Mexico.
    He is public enemy No. 1 in Chicago and carries indictments 
in California, New York, and my home State of Texas. His arrest 
is significant, both symbolically and operationally. I applaud 
the ICE agents for their participation, along with the DEA, 
U.S. marshals, and Mexican authorities, for this capture. I 
want him to face justice in the United States, and make sure he 
is never out on the streets again.
    As in the Guzman case, spill-over violence from drug 
traffic goes well beyond border towns in the United States. 
Pourous borders are a vulnerability to homeland security, and 
our border security has been woefully haphazard since 9/11.
    Last year, this committee unanimously passed the Border 
Security Results Act, which requires the Department to create a 
National, strategic plan on the border, complete with metrics 
to check our progress. I am hopeful, with your DOD experience, 
sir, that you will be able to best organize your staff with 
both strategists and planners needed to address border security 
at the National strategic level. I am also hopeful the 
Department will work with this committee on improving our cyber 
defenses, which I know you have vast experience in.
    The Department of Homeland Security has a critical role to 
play in the National Cybersecurity and Critical Infrastructure 
Protection Act of 2013, which we unanimously passed out of our 
committee earlier this month, takes an important step by 
codifying the Department's cybersecurity mission.
    The committee would like to see a greater emphasis on 
building an experienced and streamlined cyber workforce, and 
increasing the security and resiliency of our Federal networks. 
All these missions will only be successful if the Department is 
managed efficiently.
    Next week marks 11 years since the creation of DHS. No one 
should minimize the job of combining 22 different agencies, 
systems, and cultures into one. There have been many unforeseen 
challenges, but strong management means strong leadership.
    I appreciate your sincere focus on filling the vacancies at 
DHS in a very short period of time since you have become 
appointed and confirmed. With the DHS senior leadership vacancy 
rate at 38 percent, I hope you will encourage the White House 
Presidential personnel to approve your recommendations quickly.
    DHS needs competent leaders. You understand how to inspire 
and motivate staff, but also, how to make the tough decisions. 
More than 200,000 men and women whose job it is to keep 
Americans safe are now under your leadership.
    These employees strongly believe in their mission. You 
briefed me on security measures also prior to the Super Bowl. I 
believe that the local, Federal, and private-sector 
collaboration that took place there is really a model for how 
our National security apparatus should work here at home.
    I understand there is much to be proud of at the 
Department. I also know there is much progress to be made. I 
will look forward to hearing your vision and perspectives 
today, and for the coming years.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           February 26, 2014
    Today is the 21st anniversary of the first World Trade Center 
bombing which marked the beginning of the war on terrorism. Eight years 
later the attacks on 
9/11 changed our country and reformed our Government with the creation 
of the Department of Homeland Security (DHS). So it's fitting that 
today the new Secretary of the Department, Mr. Jeh Johnson is here to 
discuss his vision for DHS.
    Your new position is among the most important in the Federal 
Government. You are at the helm of a Department charged with securing 
this Nation in the midst of evolving terrorist threats, shrinking 
budgets, and persistent management challenges.
    I appreciate your outreach to me over the past few months to 
discuss our shared concerns about issues of National security. I am 
committed to solving these challenges and look forward to working 
constructively with you.
    I just returned from New York City where I met with the new Police 
Commissioner Bratton and other officials to discuss current threats. 
Al-Qaeda affiliates continue to target the United States. Iran's 
terrorist proxies are present throughout the Western Hemisphere.
    And a growing number of ungoverned locations across the Middle East 
and North Africa provide safe havens for jihadist networks. With the 
growing concern over lone-wolf attacks, we have to adapt to the reality 
that threats are not diminishing; they are evolving. DHS has a major 
role in identifying and mitigating terrorist threats to the U.S. 
homeland--whether from plots directed by jihadist networks abroad or 
from individually-inspired radicals within our borders.
    The events in Syria are now threatening to become issues for us at 
home. You said in your speech at the Wilson Center, ``Syria has become 
a matter of homeland security.'' I agree, and I want to hear what the 
Department is doing to counter this threat to the homeland.
    The capture over the weekend of the drug lord, ``El Chapo'' Guzman 
is a huge win for the United States and Mexico. He is responsible for 
thousands of deaths and his reach went far beyond Mexico.
    He is public enemy No. 1 in Chicago and carries indictments in 
California, New York, and my home State of Texas. His arrest is 
significant both symbolically and operationally and I applaud 
Immigration and Customs Enforcement (ICE) for their participation along 
with the Drug Enforcement Administration (DEA), U.S. Marshals, and 
Mexican authorities for this capture. I want him to face justice in the 
United States and make sure he is never out on the streets again.
    As in the Guzman case, spillover violence from drug traffic goes 
well beyond border towns in the United States. Porous borders are a 
vulnerability to homeland security and our border security has been 
woefully haphazard since 9/11.
    Last year this committee unanimously passed the Border Security 
Results Act, which requires the Department to create a National 
strategic plan on the border complete with metrics to check our 
progress.
    I am hopeful with your Department of Defense (DOD) experience you 
will be able to best organize your staff with both strategists and 
planners needed to address border security at the National strategic 
level.
    I am also hopeful the Department will work with this committee on 
improving our cyber defenses. The Department of Homeland Security has a 
critical role to play, and the National Cybersecurity and Critical 
Infrastructure Protection Act of 2013, which unanimously passed out of 
our committee earlier this month takes an important step by codifying 
the Department's cybersecurity mission. The committee would like to see 
a greater emphasis on building an experienced and streamlined cyber 
workforce and increasing the security and resiliency of Federal 
networks.
    All of these missions will only be successful if the Department is 
managed efficiently. Next week marks 11 years since DHS's creation, and 
no one should minimize the job of combining 22 different agencies, 
systems, and cultures into one. There have been many unforeseen 
challenges but strong management means strong leadership.
    I appreciate your sincere focus on filling vacancies at DHS. With 
the DHS senior leadership vacancy rate at 38%, I hope you will 
encourage White House Presidential Personnel to approve your 
recommendations quickly. DHS needs competent leaders who understand how 
to inspire and motivate staff but also make the tough decisions.
    More than 200,000 men and women whose job it is to keep Americans 
safe are under your leadership now. These employees strongly believe in 
their mission. You briefed me on security measures prior to the Super 
Bowl and I believe the local, Federal, and private-sector collaboration 
that took place there is a model for how our National security 
apparatus should work. I understand there is much to be proud of at the 
Department and also know there is much progress to be made. I look 
forward to hearing your vision and perspectives today and for the 
coming years.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member, the gentleman from Mississippi, Mr. Thompson, 
for any statement he may have.
    Mr. Thompson. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. I am pleased that our committee is the first in 
Congress to hear your vision for DHS.
    I understand that the day after being sworn in as the 
fourth Secretary of the Department of Homeland Security, you 
went to New York City to the National September 11 Memorial. 
That quiet act reflects an appreciation of the magnitude of the 
job.
    First and foremost, DHS was established to help make sure 
that America never experiences a day like that again. 
Specifically, DHS was established to improve terrorism 
prevention in safeguarding aviation and other critical 
infrastructure from physical and cyber threats, to achieve 
interoperability so that our first responders can communicate 
during an attack or in other emergencies, make our land, air, 
and sea borders more secure, and to bolster emergency 
preparedness, response, and resiliency at all levels.
    In the 10-plus years since the Department was established, 
some progress has been made. But as the Comptroller General and 
many Members of this committee can tell you, more needs to be 
done for DHS to become the agency that Congress envisioned and 
the American people deserve.
    The 233,000 men and women who serve in the Department and 
the 314 million Americans that it protects are looking for you 
to be the leader that takes DHS to the next level. Your last 
Federal position was at the Department of Defense. I know you 
have not been at DHS long, but I am sure you have noticed that 
the level of command and control to which you may have become 
accustomed to is not really there at DHS.
    Last week, you experienced the potentially damaging results 
of this structural defect. The fact that an acquisition 
solicitation with significant privacy implications was 
published without approval by DHS, or the awareness of ICE 
leadership, is very troubling.
    Your immediate predecessor promoted the concept of One DHS, 
once structural changes persist that dates back to when 22 
independent offices and agencies were essentially thrown 
together under one roof.
    As you have undoubtedly learned by now, DHS components 
essentially function as independent entities. All too often, 
components see directives from headquarters as advisory. This 
has to stop.
    For One DHS to truly have meaning, components must adhere 
to Department-wide policies and mandates, and I appreciate your 
position when the Chairman and I had a meeting with you that 
you basically committed to making that happen, as well as 
making sure the vacancy rate at DHS would be substantially 
reduced.
    This committee has consistently supported on a bipartisan 
basis granting authority to the chief officers of the 
Department to ensure adherence to Federal and Department-wide 
policies and mandates throughout DHS. Short of redoing the 
Federal appropriations process, this is the surest way to 
provide you with needed authority to prevent costly acquisition 
debacles and deliver timely progress on homeland security 
initiatives.
    Mr. Secretary, there are a number of DHS programs that 
warrant your immediate attention. Decisions need to be made on 
whether to reform or in some cases end them as these programs. 
I urge you to ask tough questions and keep the lines of 
communication open with Members of this committee who have 
considerable knowledge about these matters.
    On the subject of communication, I want to acknowledge my 
appreciation for the outreach to me and other Members of this 
committee that you have shown. We look forward to working 
constructively with you going forward.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the Ranking Member. I associate 
myself with your remarks in terms of the outreach you have 
demonstrated to this committee. It certainly does not go 
unnoticed.
    Members are reminded that opening statements may be 
submitted for the record. We are pleased today to be joined by 
the new appointed and confirmed Secretary. Congratulations to 
you.
    Jeh Johnson, Secretary Johnson, was sworn in on December 
23, 2013, as the fourth Secretary of the Department for 
Homeland Security. Prior to joining DHS, Secretary Johnson 
served as general counsel for the Department of Defense, where 
he was part of the senior management team and led more than 
10,000 military and civilian lawyers across the Department.
    As general counsel of the Department of Defense, Secretary 
Johnson oversaw the development of the legal aspects of many of 
our Nation's counterterrorism policies, including most 
importantly the successful raid on bin Laden, bringing him to 
justice. He also spearheaded reforms to military commissions at 
Guantanamo Bay in 2009.
    His career includes extensive service in National security, 
law enforcement, as an attorney in private corporate law 
practice. He was also the general counsel for the Department of 
the Air Force from 1998 to 2001. He also served--we have this 
in common, sir--he also served as an assistant United States 
attorney. I was in a different district. You were in the 
southern district of New York, perhaps one of the finest, from 
1989 to 1991.
    His entire written statement will appear in the record. The 
Chairman now recognizes the Secretary for 5 minutes.

STATEMENT OF HON. JEH C. JOHNSON, SECRETARY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you, Mr. Chairman. You have my 
written statement submitted for the record. I would just like 
to give some brief comments within the 5-minute allocation.
    Mr. Chairman, Ranking Member Thompson, Members of the 
committee, thank you for the opportunity to be here. I have 
appreciated your kind words, encouragement, and support in the 
days leading up to today's hearing. I look forward to working 
with this committee to meet the critical mission of homeland 
security.
    In this, my first opportunity to testify before this 
committee, I would like to spell out my vision for the 
Department that I am privileged to lead. As each of you are 
aware, the Department of Homeland Security was born out of the 
tragic events of September 11, 2001. I am a New Yorker who was 
present in Manhattan on 9/11. Therefore, out of the events of 
that day--which happens to be my birthday--my personal 
commitment to the mission of homeland security was also born.
    As the senior lawyer for the Department of Defense for 4 
years, from 2009 through 2012, I was at the center of much of 
this Government's counterterrorism efforts during that period. 
Through the efforts of both the Bush and Obama administrations, 
we have put al-Qaeda's core leadership on a path to strategic 
defeat.
    My best day as a lawyer, as the Chairman mentioned, and as 
a public servant, was May 1, 2011, the day our Special Forces 
got bin Laden.
    My second best day was May 5, 2011--the day I returned to 
Manhattan with the President to meet with the families of the 
victims of 9/11. Their message to the President was simple--
thank you. Bin Laden's death brought them some degree of 
closure, but our work must continue.
    Given how the terrorist threat to this country is evolving, 
I welcome the opportunity to continue that work as the leader 
of the Department of Homeland Security.
    The cornerstone of the Homeland Security mission has been 
and should continue to be counterterrorism--that is, protecting 
the Nation against terrorist attacks.
    Security along our borders and at ports of entry is also a 
matter of homeland security. At our borders and ports of entry, 
we must deny entry to terrorists, drug traffickers, human 
traffickers, transnational criminal organizations, and other 
threats to National security and public safety, while--and I 
emphasize this--continuing to facilitate legal trade and 
travel.
    In this regard, I, too, congratulate our law enforcement 
and National security partners in the government of Mexico for 
the capture and arrest this weekend of Joaquin ``El Chapo'' 
Guzman on February 22.
    DHS must continue efforts to address the growing cyber 
threat to the private sector and the dot-gov networks, 
illustrated by the real, pervasive, and on-going series of 
attacks on public and private infrastructure.
    Many in Congress have expressed a willingness to help in 
cybersecurity. We appreciate those efforts. I have studied H.R. 
3696, reported out of this committee on a bipartisan basis. We 
think this bill is a good step forward. We want to continue 
working with Congress on this and other legislation to improve 
the Government's and the Nation's overall cybersecurity 
posture.
    We must continue to be vigilant in preparing for and 
responding to disasters, including floods, wild fires, winter 
storms, tornadoes, hurricanes, droughts, and chemical leaks, 
like the one into the Elk River in West Virginia that 
threatened the water supply of hundreds of thousands of people.
    Finally, we must be mindful of the environment in which we 
pursue all these missions.
    First, we operate in a time of severe budget constraints. 
As Secretary of the Department of Homeland Security, I 
therefore believe I am obligated to identify and eliminate 
inefficiencies, waste, and unnecessary duplications of 
resources across DHS's large and decentralized bureaucracy, 
while pursuing important missions such as the recapitalization 
of the aging Coast Guard fleet.
    Second, I am mindful of the surveys that reflect that 
morale is low within various components of DHS. I intend to 
constantly remind our workforce of the critical importance of 
their homeland security mission, and that the Department's 
greatest asset in the pursuit of these missions is our people.
    I will be a champion for the men and women of DHS and I 
will advocate on their behalf.
    I look forward to working with this committee. The Chairman 
is correct that I am actively working to fill the vacancies in 
senior management positions. I do that on a daily basis. I look 
forward to a shared vision and a partnership with Congress on 
our important mission.
    Thank you.
    [The prepared statement of Secretary Johnson follows:]
             Prepared Statement of Honorable Jeh C. Johnson
                           February 26, 2014
    Mr. Chairman, Ranking Member Thompson, and Members of this 
committee, thank you for the opportunity to be here. I have appreciated 
your kind words, encouragement, and support in the days leading up to 
today's hearing. I look forward to working with this committee to meet 
the critical mission of homeland security.
    In this, my first opportunity to testify before this committee, I 
would like to spell out my vision for the Department I am privileged to 
lead.
    As each of you is aware, the Department of Homeland Security (DHS) 
was born out of the tragic events of 9/11.
    I am a New Yorker who was present in Manhattan on 9/11. Therefore, 
out of the events of that day, which happens to be my birthday, my 
personal commitment to the mission of homeland security was also born.
    As the senior lawyer for the Department of Defense for 4 years from 
2009 through 2012, I was at the center of much of this Government's 
counterterrorism efforts during that period. Through the efforts of 
both the Bush and Obama administrations, we have put al-Qaeda's core 
leadership on a path to strategic defeat. My best day as a lawyer and 
public servant was May 1, 2011, the day our Special Forces got bin 
Laden. My second best day was May 5, 2011, the day I returned to 
Manhattan, with the President, to meet with the families of the victims 
of 9/11. Their message to the President was simple: ``Thank you.'' Bin 
Laden's death brought them some degree of closure, but our work must 
continue.
    Given how the terrorist threat to this country is evolving, I 
welcome the opportunity to continue that work as the leader of the 
Department of Homeland Security.
    We must remain vigilant in detecting and preventing terrorist 
threats that may seek to penetrate the homeland from the land, sea, or 
air. We must continue to build relationships with State and local law 
enforcement, and the first responders in our communities, to address 
the threats we face from those who self-radicalize to violence, the so-
called ``lone wolf'' who may be living quietly in our midst, inspired 
by radical, violent ideology to do harm to Americans--illustrated last 
year by the Boston Marathon bombing.
    Addressing each of these types of threats is a matter for the 
Department of Homeland Security in close collaboration with other 
departments and agencies.
    The cornerstone of the homeland security mission has been, and 
should continue to be, counterterrorism; that is, protecting the Nation 
against terrorist attacks.
    Security along our borders and at ports of entry is also a matter 
of homeland security. At our borders and ports of entry, we must deny 
entry to terrorists, drug traffickers, human traffickers, transnational 
criminal organizations, and other threats to National security and 
public safety while continuing to facilitate legal travel and trade.
    We must be agile in addressing threats to border security. We must 
dedicate resources where the threats exist, and be prepared to move 
when they move.
    We are gratified by the support Congress has provided to improve 
security at our borders and ports of entry. With that support, we've 
made great progress. There is now more manpower, technology, and 
infrastructure on our borders than ever before, and our men and women 
in and around the border are producing results.
    For example, on February 10, a task force led by U.S. Immigration 
and Customs Enforcement shut down a 481-foot drug smuggling tunnel 
between Nogales, Mexico and Nogales, Arizona, arrested three men 
involved in the smuggling operation, and seized 640 pounds of 
marijuana.
    Meanwhile, our law enforcement and National security partners in 
the government of Mexico are making great strides in our common 
interest of combating drug trafficking, violence, and illicit activity 
along our shared border, marked by the operation to capture Joaquin 
``Chapo'' Guzman Loera, the alleged leader of the Sinaloa Cartel, on 
February 22. We congratulate the government of Mexico for these 
efforts.
    As you know, more needs to be done.
    The day in January I visited the Port Isabel Detention Center near 
Brownsville, Texas, I saw about 1,000 detainees, 18% of whom were 
Mexican, and the rest representing over 30 different nationalities who 
migrated through Mexico in an effort to get to the United States.
    Smuggling organizations are responsible for almost all those who 
cross the border illegally. We must attack these networks. And when 
individuals are detained in our custody, we must ensure our detention 
facilities are safe and humane.
    And, as part of reforming our immigration system, we support the 
additional border and port security resources that common-sense 
immigration reform legislation would provide.
    The President, many Members of Congress, the business and labor 
communities, and others all recognize that immigration reform is a 
matter of economic growth. In my view, immigration reform is also a 
matter of homeland security. There are an estimated 11.5 million 
undocumented immigrants living in this country. Most have been here for 
years. Many came here as children. I believe that, as a matter of 
homeland security, we should encourage these people to come out of the 
shadows of American society, pay taxes and fines, be held accountable, 
and be given the opportunity to get on a path to citizenship like 
others. Allowing individuals to come out of the shadows will also allow 
DHS to dedicate even more focus and attention on public safety, 
National security, and border security threats. I support common-sense 
immigration reform and the additional resources it would bring.
    DHS must continue efforts to address the growing cyber threat to 
the private sector and the ``.gov'' networks, illustrated by the real, 
pervasive, and on-going series of attacks on public and private 
infrastructure.
    In this effort, I believe that, for DHS, building trust and 
relationships with the private sector is crucial.
    Through the President's Executive Order 13636 on critical 
infrastructure cybersecurity, and Presidential Policy Directive 21 on 
strengthening the security and resilience of critical infrastructure, 
we are continuing to strengthen our partnerships with the private 
sector.
    On February 12, the White House made public the ``Cybersecurity 
Framework,'' which is a set of best practices and voluntary guidelines 
for the private sector. Initial reports are the Framework has received 
a positive reaction from the private sector. That same day, DHS stood 
up for public use the Critical Infrastructure Cyber Community--or 
``C\3\''--Voluntary Program, which gives companies direct access to 
cybersecurity experts within DHS who have knowledge of the threats we 
face. There is more to do.
    I believe it is crucial that, for the cybersecurity mission to 
succeed, we must recruit the next generation of cybersecurity talent to 
serve in Government. For this, I have embarked on a personal 
recruitment campaign. On February 14, I visited Georgia Tech and 
Morehouse College to encourage students there interested in 
cybersecurity to consider public service. I am planning other visits to 
colleges and universities for the same purpose.
    Many in Congress have expressed a willingness to help in 
cybersecurity. We appreciate those efforts. I have studied H.R. 3696 
reported out of this committee on a bipartisan basis. We think this 
bill is a good step forward. We want to continue working with Congress 
on this and other legislation to improve the Government and Nation's 
overall cybersecurity posture.
    We must continue to be vigilant in preparing for and responding to 
disasters, including floods, wildfires, winter storms, tornadoes, 
hurricanes, droughts, and chemical leaks like the one into the Elk 
River in West Virginia that threatened the water supply of hundreds of 
thousands of people.
    FEMA has come a long way from the days after Hurricane Katrina. We 
have improved disaster planning with public and private-sector 
partners, non-profit organizations, and the American people. We have 
learned how to pre-position a greater number of resources and we have 
helped to strengthen the Nation's ability to respond to disasters in a 
quick and robust fashion.
    For example, on Tuesday, February 11, the President signed an 
emergency declaration in response to the severe winter storm that 
rolled through Georgia that week. By 6 p.m. on Thursday February 13, 
FEMA had shipped to the State 112 generators, 453,000 liters of water, 
over 1,000,000 meals, over 7,000 blankets, over 2,000 cots, and 2,500 
tarps.
    We must continue good work like this.
    We must be mindful of the environment in which we pursue these 
missions:
    First, we operate in a time of severe budget constraints. The days 
are over when those of us in National and homeland security can expect 
more and more to be added each year to our top-line budgets. As 
Secretary of the Department of Homeland Security, I believe I am 
obliged to identify and eliminate inefficiencies, waste, and 
unnecessary duplications of resources across DHS's large and 
decentralized bureaucracy, while pursuing important missions such as 
the recapitalization of the aging Coast Guard fleet.
    I compliment TSA for its recent decision to realign the number of 
Federal Air Marshal offices across the country, to achieve greater 
efficiencies while continuing to perform this critical mission, and I 
am encouraging other DHS components to think in these terms.
    To achieve greater efficiencies, we must manage our large and 
diffuse bureaucracy more effectively. I am pleased that late last year 
DHS received its first unqualified, or ``clean,'' audit opinion, a 
significant achievement just 10 years after the largest realignment and 
consolidation of U.S. Government agencies and functions since the 
creation of the Department of Defense. At my direction, we are also 
working to get DHS programs off the GAO ``high-risk'' list.
    Second, I am mindful of the surveys that reflect that morale is low 
within various components of DHS. I intend to constantly remind our 
workforce of the critical importance of their homeland security 
mission, and that the Department's greatest asset in the pursuit of 
that mission is our people.
    I will be a champion for the men and women of DHS, and I will 
advocate on their behalf.
    I did not enjoy, early in my tenure, suspending Administratively 
Uncontrollable Overtime pay for certain categories of DHS workers. I 
continue to support overtime for DHS personnel who earn it and require 
it, especially the men and women in the field working to keep our 
Nation safe, but we must work within the laws and rules pursuant to 
which overtime is sought and received.
    We must inject a new energy into DHS, and good leadership starts 
with recruiting other good leaders to join the team to help run the 
organization. With the help of the White House and Congress, we are 
actively recruiting terrific people to fill the large number of senior 
management vacancies that have existed within DHS.
    We look forward to the Senate confirmation of Suzanne Spaulding to 
be under secretary for National Protection and Programs Directorate; 
Gil Kerlikowske to be the next commissioner of Customs and Border 
Protection; John Roth to be the next inspector general; Leon Rodriguez 
to be the next director of U.S. Citizenship and Immigration Services; 
and Dr. Reggie Brothers to be the next under secretary for Science and 
Technology.
    I am very pleased that on February 12 the President nominated 
retired Brigadier General Frank Taylor, the former ambassador-at-large 
for counterterrorism, to be our next under secretary for Intelligence & 
Analysis. We are working to recruit terrific people to fill other key 
positions, including the next under secretary for Management, director 
of Immigration and Customs Enforcement, and the Chief Financial 
Officer.
    Finally, the Department's ability to serve the American people well 
requires effective oversight by Congress. I want to work with this 
committee to reform DHS Congressional jurisdiction, which is spread 
across more than 100 committees and subcommittees of Congress. More 
than 10 years after the Department's creation, it is time to fulfill 
this 9/11 Commission recommendation and streamline the current 
oversight structure.
    For my part, I have directed my staff and our component leadership 
to be responsive to inquiries and letters from Members and committees 
of Congress. I have begun a practice of personally reading each letter 
addressed to me from any Member of Congress, and, along with the deputy 
secretary, I track the status to ensure you receive the responses 
promptly.
    In all, I believe DHS must be agile and vigilant in continually 
adapting to evolving threats and hazards. We must learn from and adapt 
to the changing character of the threats and hazards we face: 9/11; 
Hurricane Katrina in 2005; the underwear bomber in 2009; the Deepwater 
Horizon oil spill in 2010; Hurricane Sandy in 2012; and the Boston 
Marathon bombing in 2013 illustrate these evolving threats and hazards. 
We must stay one step ahead of the next terrorist attack, the next 
cyber attack, and the next natural disaster.
    In the pursuit of this important mission, I pledge to this 
committee my total dedication and all the energy I possess.
    Thank you for listening and I look forward to your questions.

    Chairman McCaul. I thank the Secretary, and I believe that 
your priorities and mine are very similar. We look forward to 
working with you on achieving those.
    This last weekend was an extraordinary weekend for me, 
having been the chief of counterterrorism, who at the U.S.-
Mexico border, my jurisdiction, the drug cartels have been on 
my radar screen for quite some time. The arrest of the largest, 
most well-known drug lord of the most powerful, oldest drug 
cartel organization, the Sinaloa, was hugely significant.
    He has smuggled tons of drugs into the United States, 
killed thousands of people. I want to personally take this 
opportunity to thank Homeland Security officials, ICE agents on 
the ground who made this happen, who worked closely with DEA to 
bring Chapo Guzman finally, after 3 decades, to justice.
    I think it is important that we recognize our men and women 
in Homeland Security who had a role in bringing him down.
    I am concerned, and I did talk to the Ambassador from 
Mexico yesterday, we had a very good conversation. He is very 
proud of the cooperation between the United States and Mexico, 
which was extraordinary in this case. Mexico is to be commended 
for their willingness to take this threat on, head-on. They 
took down the head of the Los Zetas cartel and now with Chapo 
Guzman, Sinaloa.
    As you know, Mr. Secretary, El Chapo Guzman escaped 
captivity, a prison, in 2001. He has 12 years left to his 
sentence. But I am concerned about that happening again in 
Mexico. My understanding is that extradition papers have not 
been served to date.
    Do you know whether this administration is intent on 
extraditing El Chapo Guzman to the United States to stand trial 
for the crimes he committed in the United States?
    Secretary Johnson. Mr. Chairman, let me begin by echoing 
much of what you said. We do indeed have a terrific partnership 
with the government of Mexico in our shared homeland security, 
border security efforts. We work together constantly.
    I was in Mexico with the President last week. I intend to 
go back in the next couple of weeks. I intend to speak with my 
Mexican counterpart today on various matters. So I can't 
emphasize enough the importance and the strength of our shared 
law enforcement, homeland security, National security efforts. 
We work well together as a team with the government of Mexico.
    I, too, agree with the importance and the broad 
implications of this weekend's capture and arrest.
    Mr. Chairman, as you know, extradition is a matter for the 
Department of Justice. I have read what you have read with 
great interest. One of the things that strikes me about where 
we are, it may be easier to work out the appropriate 
arrangement with the government of Mexico than it will be to 
work out an appropriate arrangement among the six U.S. 
attorneys who would like to prosecute this individual. That 
will be an interesting discussion.
    But I have to respectfully refer you to the Department of 
Justice with regard to the discussions that I know they are 
having with the government of Mexico regarding extradition.
    Chairman McCaul. Well, you are a part of this 
administration. I would hope that having a seat at the table, 
you will urge the Attorney General and the State Department, as 
I am doing, to seek extradition and bring him to the United 
States for trial. I would hope that you would agree with that 
assessment.
    Secretary Johnson. I agree wholeheartedly that we in this 
country have an interest in seeing him brought to justice.
    Chairman McCaul. Well, and I know that there are multiple 
jurisdictions here at play. I am going to do everything in my 
power to see that that happens.
    You talked about Syria in your speech at the Wilson Center. 
You said that Syria is now a matter of homeland security. I 
couldn't agree with you more, as we see more and more jihadists 
pouring into Syria for the fight in the rebel forces who have 
been now infiltrated by al-Qaeda affiliates. It is becoming one 
of the largest training grounds now in the world, in my 
judgment, surpassing the FATA in Pakistan.
    Therein lies the threat, I think, to the United States. 
These individuals have travel documents, with training, 
expertise, leaving Syria, perhaps going to Western Europe or 
the United States is a serious concern of mine. I would like 
for you to elaborate on that statement.
    Secretary Johnson. From my experience at the Department of 
Defense in counterterrorism matters, I know that terrorist 
organizations look for places to build safe havens. They look 
for places in remote areas, in areas that do not have robust 
law enforcement, to train and from which to launch terrorist 
attacks and terrorist planning.
    So we have to be constantly vigilant in looking out for 
those efforts and preventing them. I have seen that time and 
again over the 4 years I was at the Department of Defense. We 
are concerned about foreign fighters going into Syria. It is a 
shared concern between us and our European allies and others in 
the world.
    The numbers are concerning. We are monitoring the situation 
very closely. I would say that for those of us in National 
security and homeland security in this government, this 
particular issue is at the top of the list or near the top of 
the list for us. We talk about it all the time. We are 
carefully monitoring the situation, and I would be happy to 
share with this committee in a non-public setting some of the 
more sensitive elements of what our Government is doing.
    I believe at least several of you may have been briefed on 
that, but we are happy to share that information.
    Chairman McCaul. We appreciate that information. Thank you, 
Secretary.
    The Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Again, welcome, Mr. Secretary. Recently, TSA decided to 
open a pre-clearance operation in Abu Dhabi. Some of us have 
expressed concern that it might in our estimation have been a 
rush that could potentially create some vulnerabilities for 
people traveling to the United States.
    I think one of the issues is that people coming from Abu 
Dhabi would bypass the domestic screening when boarding 
connecting flights in the United States. Some of those people 
are identified as selectees.
    So if I am coming to New York, Dulles, or LAX, can you 
assure this committee that the process TSA has implemented 
would somehow allow the selectees to be more than just passed 
through? That once they touched down in the United States, 
there would be some kind of re-screening of that individual 
once they are here?
    Secretary Johnson. Thank you, Congressman, for that 
question.
    The short answer to your question is yes, that is something 
that is important that I intend to look at, in terms of what 
happens at the arrival, once somebody has gone through pre-
clearance overseas.
    I want to emphasize what I regard as the importance of pre-
clearance at our last point-of-departure airports. Aviation 
security involves, in my judgment, primarily security when it 
concerns what happens in the air on the way to the United 
States. We got a rude awakening of that on December 25, 2009.
    So, in my judgment, looking at the security at the various 
last point-of-departure airports that are out there in the 
world that send flights into the United States, I believe it is 
a homeland security imperative that we improve that security in 
one way or another. I think pre-clearance is a good way to do 
that.
    Abu Dhabi is not intended to be an endpoint. It is a point 
along the way in a progression. We will continue to look at 
additional airports and I think we ought to also look at your 
question, as well--what happens when the traveler gets to the 
United States.
    Mr. Thompson. Especially when some of the travelers have 
been ping'd in the system as a selectee. I am concerned about--
because we have a number of those individuals who would come 
through that. I look forward to working with you on that.
    Chairman, I would like unanimous consent that the letter to 
the committee received from the Airline Pilots Association 
expressing concern with the pre-clearance operation in Abu 
Dhabi be inserted in the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
       Letter From the Air Line Pilots Association International
                                 February 25, 2014.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, 176 Ford Office Building, 
        Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, 117 Ford Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: On behalf of the 
50,000 professional airline pilots represented by the Air Line Pilots 
Association, International (ALPA), we would like to thank you for 
holding a hearing on future priorities and challenges at the U.S. 
Department of Homeland Security (DHS). We recognize that DHS faces 
monumental tasks and are pleased to partner with your committee and 
Secretary Johnson's team to address aviation security challenges.
    ALPA continues to oppose the Customs and Border Protection (CBP) 
preclearance facility at Abu Dhabi International Airport. The lack of 
U.S. air carrier service to Abu Dhabi as well as the unusual pay-to-
play precedent that is being set by CBP with regard to future 
preclearance facilities is extremely troubling and aggravates the 
immediate CBP staffing challenges at our domestic airports.
    The very real threat posed by Middle Eastern air carriers to the 
future of the U.S. aviation industry is further exacerbated by our own 
country's willingness to provide these foreign carriers with a 
competitive financial advantage by authorizing these preclearance 
facilities. The direct and indirect financial and policy support these 
foreign air carriers receive from their respective governments already 
provides them with a competitive advantage. They don't need our help.
    In addition to ALPA's opposition to the Abu Dhabi site, we are 
particularly concerned with recent reports of another preclearance 
facility being planned less than 100 miles away in Dubai. If these 
reports are true, and another preclearance facility is in fact planned 
for Dubai, then our initial concerns with respect to Abu Dhabi and the 
``domino effect'' it will have on other Middle Eastern airports are 
fully substantiated. If anything, this situation has highlighted the 
need for a clear and uniform policy on how future preclearance sites 
are established, but more importantly, the need for Congressional 
oversight and approval of any such facilities.
    We appreciate the committee's commitment to ensuring sound security 
oversight related to any expansion of preclearance facilities and hope 
that you will continue to explore the security questions surrounding 
Abu Dhabi preclearance. Further, we respectfully impress upon you that 
any expansion of CBP preclearance facilities that present an unlevel 
playing field for U.S. carriers is poor policy and will have serious 
ramifications for the U.S. airline industry and U.S. jobs.
    Thank you for your continued interest in this matter.
            Sincerely,
                                                  Lee Moak,
                                                         President.

    Mr. Thompson. Secretary, several years ago, Congress passed 
100 percent screening mandate for maritime cargo. Your 
predecessor looked at it and said we didn't need to do it. Will 
you look at the 100 percent screening mandate that Congress 
passed and report back to us on where we are toward meeting 
that mandate?
    Secretary Johnson. That legal mandate is something that 
many Members of Congress have talked to me, too--talked to me 
about, including in the Senate confirmation process, it was 
raised by a number of Members of Congress on both sides of the 
aisle.
    As recently as last week when I was at the port of Los 
Angeles, I examined what our screening scanning capabilities 
are and the implications of putting that--trying to put that 
and the cost of putting that at overseas ports to comply with 
the legal requirement. I understand that the Secretary of 
Homeland Security can, for a period of time, waive that. I am 
looking at that.
    In general, I believe that the Department ought to comply 
with legal mandates. So if there is some reason we can't 
immediately, then consistent with the law, we ought to at least 
have a plan for getting there.
    So I am studying the issue very closely, and I did that as 
recently as last week.
    Mr. Thompson. Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. The Chairman will now recognize other 
Members for 5 minutes for questions in the order of arrival.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Johnson, let me switch to the subject of 
immigration. The administration has been making a sales pitch 
that they are deporting or removing record numbers of 
individuals compared to previous administrations.
    You all count, do you not, the turn-arounds, the turn-backs 
at the border, as deportations?
    Secretary Johnson. Yes, Congressman. I believe that was 
reflected in the removal numbers we reported recently for 
fiscal year 2013.
    Mr. Smith. That is correct. That is correct. That is 
reflected in your deportation numbers. The problem is other 
administrations, including the Bush administration and the 
Clinton administration, did not include turn-backs at the 
border as a part of their deportation numbers.
    So to say that you are setting records when comparing 
oranges and oranges is simply not accurate. If you look at 
interior deportations, they are down 40 percent since 2009. Do 
you agree with that generally speaking, if we are looking at 
interior deportation? You may need to check that, I realize.
    But I have looked at the figures, and they are down 40 
percent. So for this administration to say it is breaking 
records in removing individuals is simply not accurate. If you 
have any comment on that, you are welcome to make it.
    Secretary Johnson. Well, I would have to look at the the 
numbers myself. My understanding, which could be wrong, is that 
consistent with prior administrations, we have reported the 
overall numbers; but that with respect to the last report, we 
broke out, within that overall number, the number of those who 
are border arrests----
    Mr. Smith. Again, the problem with this administration is 
that they are including the turn-backs and the removals by the 
Border Patrol at the border. Previous administrations did not. 
So you are inflating your figures so that you can claim to be 
setting records, when in fact, you are not.
    Actual deportations from the interior are down 40 percent. 
If you want to get back to me on that, you are welcome to.
    Secretary Johnson. I will look into those numbers, sir.
    Mr. Smith. Okay. Let me go to another subject, and that is 
what the administration is doing with illegal immigrants who 
have been charged with serious crimes. As I understand it, the 
administration is releasing tens of thousands of these 
individuals back into our communities where they are of course 
a threat to American citizens and residents.
    I was not able to get the figures from the Department of 
Homeland Security, but I was able to get the figures from the 
Congressional Research Service, though they are I think a year 
old. Fourteen percent of those individuals who have been 
charged and released were charged with DUI; 10 percent, drug 
violations; 7 percent, thousands of people, charged with 
murder, assault, rape, and kidnapping, were released back into 
our communities. Why?
    Secretary Johnson. What I am committed to do is removing 
those who represent National security, public safety, and 
border security threats. I believe that that requires a 
constant reevaluation of our process, what we are doing, who we 
are removing. I am committed to continuing to do that.
    Mr. Smith. Shouldn't individuals in our country illegally, 
who have been charged with these kinds of crimes, shouldn't 
they be a priority to remove? Why would we release them back in 
our streets, and communities, and neighborhoods?
    Secretary Johnson. Those who represent public safety 
threats who are in this country illegally fit within our 
removal priorities.
    Mr. Smith. Do you not think they represent a public threat, 
these individuals who have been charged with those crimes?
    Secretary Johnson. Well, as I said, I think we should 
continually reevaluate what we are doing to make sure that what 
we are doing fit within those priorities.
    Mr. Smith. In your reevaluation, I hope you will give 
greater priority to removing those individuals who are clearly 
a threat to the lives and safety of American citizens, and who 
have been charged with these crimes, tens of thousands of 
people. You are actually releasing more people into our 
neighborhoods than you are removing of the individuals who have 
been charged with crimes. I just don't know what the 
justification or rationale, for that is.
    Last question goes to border security: As you probably 
know, in 2011, the Government Accountability Office came up 
with the determination that about 44 percent of the border was 
under some level of control, but that only 6.5 percent of the 
border was under actual control--6.5 percent.
    The administration didn't like that result, so they said, 
``We are not going to use the GAO's metrics anymore. We are 
going to come up with something else.''
    To this day, they have not. So we have no way of knowing, 
as we sit here right now, how secure or insecure the border is, 
other than 6.5 percent a few years ago was actually under 
actual control. When is the DHS going to update its border 
security statistics?
    Secretary Johnson. I agree with the goal of establishing 
metrics for what constitutes border security. I agree with that 
goal. We are working toward that goal right now, and we are 
working towards something we can share with Congress.
    When I was at the Southwest Border, and I talked to the 
border-security experts about border security, they emphasized 
to me an approach that is agile, with an emphasis on 
surveillance, with an emphasis on mobility, so that we can 
follow the threats as they exist, as we can follow the trends 
in illegal migration as they arise. I think that is a good 
approach. I think that with the resources Congress has given 
us, we have done better. But there is always more work to do.
    Chairman McCaul. Chairman now recognizes the gentlelady 
from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Secretary, it is 
great to have you. Of course, seen you before the House Armed 
Services Committee before, and really excited to have you over 
at the Department. Have a lot of questions for you, so I am 
going to sort of go through them, and maybe if you have a 
pencil there, what have you.
    First of all, I want to put into the record, with unanimous 
consent, Mr. Chairman, a letter from the Coalition for Humane 
Immigrant Rights of Los Angeles to be into the record, please.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
  Letter From The Coalition For Humane Immigrant Rights of Los Angeles
                                 February 25, 2014.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, 176 Ford Office Building, 
        Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, 117 Ford Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: The Coalition for 
Humane Immigrant Rights of Los Angeles (CHIRLA) is a regional 
organization whose mission is to advance the human and civil rights of 
immigrants and refugees in Los Angeles. CHIRLA advocates on behalf of 
this community through policy & advocacy, organizing, education and 
community building. On behalf of CHIRLA, I am writing to express our 
views and issue recommendations for the hearing on immigration border 
enforcement to be held on 26 February 2014, ``The Secretary's Vision 
for the Future--Challenges and Priorities.''
    As an organization with a strong commitment to its members to do 
its utmost to advance the cause of immigration reform, we wish to 
reiterate our support for this committee's measured bipartisan approach 
to border security as outlined in the Chairman's bill, H.R. 1417. 
Unfortunately, similarly sensible action has to date neither been taken 
by the House Judiciary Committee nor has H.R. 1417 or any other 
immigration bill been brought to the floor for debate or a single vote. 
While we will continue to push for fair, inclusive reform that will 
recognize the contributions hard work of millions of immigrants, CHIRLA 
and its allies feel strongly that the Department of Homeland Security 
can and should act to provide relief for our communities in the mean 
time. To our mind, it is both counterproductive and fundamentally un-
American to deport the very same people who ultimately would benefit 
from the passage of such reform, simply due to the fact that they were 
arbitrarily entangled in the tentacles of immigration enforcement.
    Accordingly, we propose the following as topics of concern to the 
immigrant community and should therefore be at the forefront of the 
Secretary and the administration's work to help guide the country 
towards a solution to our broken immigration system:
  <bullet> Deferred Action for Childhood Arrivals (DACA).--Department 
        of Homeland Security (DHS) should not only focus on the renewal 
        process, but also on updating the language and requirements to 
        ensure that a broader portion of the eligible population is 
        covered;
  <bullet> Keep families, including but not limited to those with DACA 
        recipients, together by expanding upon administrative relief 
        options;
  <bullet> In concert with the Executive Office of Immigration Review 
        at the Department of Justice, DHS should implement a broader 
        use of prosecutorial discretion as outlined in the Morton memos 
        dated 17 June 2011 and 3 March 2011;\1\
---------------------------------------------------------------------------
    \1\ 2/3/11 ``Civil Immigration Enforcement: Priorities for the 
Apprehension, Detention, and Removal of Aliens:''; 6/17/11 
``Prosecutorial Discretion: Certain Victims, Witnesses, and 
Plaintiffs'' and ``Exercising Prosecutorial Discretion Consistent with 
the Civil Immigration Enforcement Priorities of the Agency for the 
Apprehension, Detention, and Removal of Aliens''.
---------------------------------------------------------------------------
  <bullet> Designate the nationals of the Philippines as eligible for 
        Temporary Protected Status (TPS) due to the on-going crisis 
        following Typhoon Haiyan;
  <bullet> Recommend a far greater appropriation of DHS monies towards 
        the integration of New Americans rather than further 
        strengthening the enforcement apparatus that instead removes 
        aspiring Americans from this country;
  <bullet> Require that all ICE detainers (1-247), whether issued by a 
        Federal agent or a 287(g) cross-deputized local law enforcement 
        officer, be co-signed by a supervisory official at a DHS 
        headquarters;
  <bullet> Exercise greater vigilance regarding racial profiling. 
        Follow through on the DHS Officer for Civil Rights and Civil 
        Liberties (OCRCL) commitments to statistically evaluate 
        unconstitutional and disparate impact of immigration 
        enforcement programs such as ``Secure Communities''.
    We look forward to seeing the above can be implemented by the 
Department, and would be happy to discuss this in greater detail with 
Members of the committee and their staff.
            Sincerely,
                                            Joseph Villela,
                                     Director of Policy & Advocacy.

    Ms. Sanchez. Second, Mr. Secretary, here are my questions. 
The first is a plea, if you will, I know that you understand, 
or are trying to understand what is going on in Venezuela right 
now. There is not as much of an emphasis of what is going on in 
Venezuela vis-a-vis the TV reporting, et cetera, as the 
Ukraine, for example.
    But the fact of the matter is it is getting incredibly 
dangerous, and a lot of people are suffering. So my first would 
be just to remind your USCIS agents who are dealing with some 
of these visas that people are on from Venezuela, that in a 
time of such instability and almost a civil war going on there, 
that they have a lot of discretion in being able to extend some 
of that time, or helping those people stay here until it gets 
better in the situation over there in Venezuela. I think that 
is incredibly important for you to reiterate, please, with the 
people that you oversee.
    Second, we have a particular situation on the California-
Mexico border. Been working a long time. As you know, Mexico 
has been--this is between Mexicali and Calexico. I know the 
area well, because my mother grew up in the Mexicali area.
    So the waits are 2 or 3 hours, sometimes, in the pedestrian 
line, to walk across. There is a lot of cross-traffic that 
happens. People live in one place, they work in the other, vice 
versa.
    Mexicali gets up to about 125 degrees in the summer. Summer 
is coming up. There are no shade areas for these people as they 
stand in line. I know that the local chamber there is coming up 
with about half the money.
    It would take about a million dollars to kind of 
restructure the pedestrian piece of processing, where they 
could get a much faster flow-through, you know, without any 
increase in risk of who is coming across.
    I would urge you, please, to take a look, and to help us 
get that done before the summer months come, because it really 
affects a lot of people. It is--you know, a million bucks is 
not a lot when we are talking about the Federal Government. It 
would really, really help there.
    TWIC cards, just want to get some indication from you. With 
the readers not working, what do you see as the future of what 
is going on with the whole TWIC card situation?
    The next one, of course, I have been a big advocate of the 
U.S. exit biometrics to exit, understanding the visas that we 
allow people to come in on, and then they overstay. Quite 
frankly, the former Secretary sat in front of us the first time 
she was there, and said she just wasn't going to do it.
    We have passed it in law twice. This committee has passed 
it two or three times. Mrs. Miller and I have a bill to try to 
get that done. So I would be very interested in that.
    Last, you have a lot of experience from the Defense 
Department. What can you bring? How can you help us to get 
things more streamlined, more categorized, and better off in 
this Department? Again, thank you for your service.
    Secretary Johnson. Item No. 1, I would be happy to look at 
the letter that was put into the record. I would like to 
mention, ma'am, that I was in Los Angeles Friday, and met with 
a coalition of those interested in immigration enforcement and 
reform. We had a good meeting at the City Hall with the mayor.
    No. 2, thank you for your reference to Venezuela. It is 
obviously a situation we are looking at closely. But I 
appreciate the context in which you mention it.
    No. 3, on the issue of wait times, that is something I will 
look at, particularly in the port of entry you mentioned. I do 
know that wait times, whether it is at a land port or an 
airport, can spike up or down, depending on circumstances. But 
I am happy to look at that as well.
    With regard to TWIC cards, I think the overall goal of the 
card, the overall Homeland Security goal is a good one, and a 
valid one. I think it is a program that we need to continue to 
develop and pursue.
    In the development of such a program like that, there are 
always a few things that could be done more efficiently. I know 
that a number of truckers, for example, would like to see it be 
done, you know, sort of one-stop shopping, versus having to 
visit two or three times. I understand that, and I think we 
will get there.
    Biometric exit is, in my judgment, the gold standard. It is 
a place that we eventually ought to get to. I have asked about 
it. We have biometric entry.
    I would like to ultimately see us get to biometric exit. 
There are some practical and cost considerations to doing that. 
But it is the gold standard. I agree with that.
    Ms. Sanchez. Thank you, Mr. Secretary. I look forward to 
hopefully--to having an individual meeting, maybe going more 
in-depth on some of these issues, because I think they are 
incredibly important.
    Secretary Johnson. It is nice to see you again as well.
    Ms. Sanchez. Thank you.
    Chairman McCaul. Chairman now recognizes Chairman Emeritus, 
Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me also, at the 
outset, thank you for the visit you made to New York on Monday. 
From talking to the commissioner afterwards, it was a very, 
very fruitful meeting. I thank you for the interest you have 
shown.
    Secretary Johnson, I want to welcome you to the committee. 
Thank you for the interest and the outreach you have done since 
your nomination, and certainly since your approval by the 
Senate.
    It was mentioned that 21 years ago today was the first 
attack on the World Trade Center. Actually, a neighbor of mine, 
Monica Rodriguez Schmitz, was killed that day. I think a 
mistake all of us made, was none of us realized the full 
implications of that.
    As you said, you were in New York on 9/11 itself. We did 
respond very strongly to that. As you said, under both 
administrations, we have gone a long way toward decimating the 
leadership of al-Qaeda, of core al-Qaeda.
    I guess a concern I have is that all of us, perhaps, you 
know, to make sure that we don't make the mistake we made after 
1993 and not realize the full extent of the threat. Because, as 
you mentioned, regarding Syria, and the Chairman has mentioned 
also, al-Qaeda has now metastasized and morphed. So core al-
Qaeda is no longer probably the main threat we face.
    In your speech, you mentioned Syria. But also, there is 
Egypt, Iraq, Libya, Yemen, Algeria, Mali, Somalia, all of which 
have organizations with either--direct relations to al-Qaeda, 
or they share the al-Qaeda philosophy.
    What is the Department of Homeland Security doing to adapt 
to the threats that could be coming from those countries, 
specifically like with Syria, where we would have people who 
are foreign fighters, who could have come from visa-waiver 
countries, or they could be U.S. citizens, or the other 
countries that were mentioned. How is DHS adapting to this new 
type of terror we are facing?
    Secretary Johnson. Thank you for that question, 
Congressman. I think, from my Homeland Security perspective, 
which includes TSA, CBP, CIS, ICE, Coast Guard, information 
sharing with our partners through which individuals of 
suspicion may travel, we need greater information sharing.
    We need greater attention to the borders, not just the U.S. 
borders. It is something we are working on. It is something 
that I worked on with our allies, as recently as 2 weeks ago 
when I met with our European counterparts, Syria was the issue 
at the top of the list.
    I think greater attention to aviation security and port 
security. That is why I mentioned that in my judgment, pre-
clearance is very, very important from a Homeland Security 
perspective. I think we need to build on that.
    I think we need to continue to build on intelligence 
information sharing across JTTFs, fusion centers, with the 
intelligence community and Homeland Security. I think 
information sharing is key. I am also concerned about those who 
self-radicalize. I think you share that concern about the so-
called lone wolf. I think that the Boston Marathon bombing may 
be a sign of the future. In many respects, those threats are 
harder to detect.
    So working with State and local governments, first 
responders, police commissioners, fire departments, funding, 
training, preparedness--and we saw, I think, a decent example 
of how that training and preparedness can work in places like 
Boston if another tragedy happens.
    So I think we have got to be vigilant. I think the 
terrorist threat is becoming more diffuse. In many respects, it 
is harder to detect. Beginning in around 2009, we saw a rise of 
affiliates. But I think it is becoming even more diffuse.
    Mr. King. Secretary, whenever the Secretary of Homeland 
Security comes in, we were always critical of the fact the 
Department is not run efficiently enough. Yet, looking at 
ourselves, we have, I think, 110 Congressional committees, and 
subcommittees, which have just totally spread jurisdiction all 
over the place when it comes to homeland security.
    In this, I would say, both parties have failed to really 
address this. I would just ask, as we have asked other 
secretaries, to try to use whatever influence you might have 
with the Congress, just to make it clear, the terrible drain on 
your time that it involves, and also, the fact that you can't 
respond to that many masters. I mean, basically, Defense 
Department has asked.
    You, now in your capacity, have 110 committees and 
subcommittees. So whatever you could do just to lend your voice 
to that would be appreciated.
    Secretary Johnson. I hesitate to tell you folks how to do 
your job. That is your prerogative. But I do agree that when I 
have 108 committees and subcommittees of Congress performing an 
oversight function, it takes a lot of time to--and I enjoy 
coming up here. But it takes a lot of time to deal with all of 
the oversight, which detracts from the core mission that I 
think you want me to pay attention to.
    Mr. King. Mr. Chairman, I just have 10 seconds on this. 
There is a matter which I will talk to you privately about. 
There is an individual I am aware of, who I believe has been 
watch-listed for a number of years. I have met with Homeland 
Security, with TSC, FBI, to try to resolve this issue.
    Unfortunate to say, since I have been asking questions, his 
treatment seems to be worse; yesterday, a terrible incident at 
an airport. I will discuss it with you privately. This is not 
primarily your responsibility, but again, TSA does have some 
bearing here.
    So I just wanted to discuss it with you privately. I don't 
want to cause any extra problem for this person by mentioning 
his name publicly. But I will get back to you on that.
    Secretary Johnson. Glad to take that for the record.
    Mr. King. Thank you.
    Chairman McCaul. Thank the gentleman. Let me also say, I 
agree with the jurisdictional problems. I think it detracts 
from your mission. It is something I would like to fix. We have 
a hearing scheduled on this issue.
    The Aspen Institute came out with a very good video called 
``Homeland Confusion.'' So with that, I recognize the 
gentlelady from Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
this hearing. Secretary, again, thank you for your commitment 
to service.
    Might I just echo two of my preceding colleagues. It would 
be great if we, ourselves, self-regulated ourselves with 
respect to the streamline of committees that address the 
question of homeland security. So I hope that we will have the 
opportunity to do so. We hope the administration would be 
supportive, as they can be, with the three branches of 
Government.
    Let me very quickly add my appreciation for the 
apprehension of Guzman, and all that that represents, 
particularly the heroic efforts of ICE and the U.S. Marshals, 
DEA, Mexican authorities. It is a very important statement.
    I join my colleague for indicating that I am respectful of 
Mexican sovereignty. But I think we are neighbors and 
collaborators, and I believe it would be very important that we 
have the ability for Mr. Guzman to be transferred here to the 
United States under the necessary procedures.
    I also want to thank you, as the Secretary of Homeland 
Security, for your forceful comments during Sochi regarding the 
security of our athletes, and all the efforts that were made by 
Americans that complemented the work that was done in Europe 
and in Russia. We are very thankful for the safe return of our 
athletes.
    I want to quickly ask some questions. I am going to say 
them, then hopefully, you will be able to answer them. I want 
to go specifically to the question of detention.
    I think we have had some discussions, and the whole idea of 
the fact that we are detaining through ICE. We have gone from 
167,000 to 478,000. There has not been much use of the 
alternative detention process.
    I would be interested in your thoughts on that. Then I want 
to thank CBP and others. I always acknowledge the good part of 
their service. But I am concerned about the number of deaths, 
and the issues dealing with excessive force by CBP, and the 
report that came out that suggested that they would be engaged 
in reforms.
    My question to you is: How will you engage to make sure 
those reforms move quickly, and that they are done in the 
highest professional way?
    In addition, the CBP short-term facilities, they are at the 
border, and they are classified to hold 300 persons. We have 
found that they have held three times--that is 900 people.
    A Honduran lost his life, had a massive stroke, I believe, 
or heart attack. He was in one of those facilities. The 
question is whether or not he was able to get medical care 
quickly enough. There are questions of heat, questions of 
cleanliness, et cetera.
    I would be interested--we are in the business of protecting 
our borders. But we are also a country that believes in 
humanity and humaneness.
    The issue of human trafficking has become a major issue in 
the Southern Border, in Houston, Texas. I would like to know 
any strategies that Homeland Security has. I have indicated we 
will be holding a hearing on that in Texas.
    But what will Homeland Security be doing to thwart that 
particular issue? If you would, I would appreciate your 
answers. Thank you.
    Secretary Johnson. Ma'am, first on the issue of detention, 
and detention practices, when I was general counsel of the 
Department of Defense, within the first 3 or 4 weeks I was in 
office, I visited our detention facilities at Guantanamo, in 
Iraq and Afghanistan, and urged certain reforms that were made.
    I recall in Afghanistan, actually going into one of the 
cells, and asked the guards to close the door behind me so that 
I could fully understand. You could imagine the lawyer jokes 
when I did that. But I am very interested in this issue.
    I have visited the detention center in South Texas already. 
I intend to visit more around the country. It is an issue that 
I want to study carefully.
    One thing that strikes me about the Southwest Border in 
particular, is that almost everyone who crosses the border 
illegally has paid money to a smuggling organization is being 
trafficked, so to speak. I think the key is to attack the 
network in some way. In working with our inner-agency partners, 
working with our Mexican friends, we should focus on that.
    Ms. Jackson Lee. Thank you. I think I asked you another 
question about the short-term facilities and the reforms on 
excessive force by CBP. That is a different question. There is 
a report that indicated that they would be reforming their 
processes, as in use of force, at the border.
    Secretary Johnson. I am very interested and concerned about 
use of force. I think that a law enforcement agency, foreign 
armed-force military, has to be credible in the communities in 
which it operates.
    So I was happy to know that the CBP commissioner intends to 
make the CBP use-of-force policies public any day now. I am 
encouraging other components of DHS to think along those lines.
    I am also interested in reviewing some of the more recent 
cases myself to ensure that we are getting this right.
    Ms. Jackson Lee. I think you answered the human-trafficking 
question about the concern by Homeland Security engaging on 
that issue.
    Secretary Johnson. Yes. Yes, ma'am. It is something I 
intend to do.
    Ms. Jackson Lee. Thank you very much. I yield back.
    Chairman McCaul. Let me remind Members, the Secretary has a 
hard stop at noon today. So I would ask that you stay within 
the 5-minute rule. Chairman recognizes Dr. Broun.
    Mr. Broun. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your statements regarding wanting to work with this 
committee and being responsive to our inquiries.
    After years of frustration and stonewalling from your 
predecessor, I look forward to having a dialogue. In fact, if 
we had as much stonewalling going on down at the border as we 
have had from this administration, we would have a secure 
border.
    I am very keen on doing that first and foremost. That being 
said, I am very concerned about some of your comments regarding 
illegal immigration.
    You claim that so-called comprehensive immigration reform 
is a matter of homeland security, and have even gone so far as 
to say that those here legally have, to quote you, ``earned the 
right to be citizens,'' which clearly signals that you favor 
amnesty.
    However, as we have seen in the past, amnesty simply does 
not work. We need to enforce the laws on the books. We need to 
secure the border before any conversation on any broad reforms.
    Your comments of those that you have made as well as what 
President Obama has made, promising amnesty, seem to encourage, 
not discourage, illegal entry into this country.
    My question is: Do you believe that your apparent 
inclination towards amnesty will improve homeland security and 
not worsen the problem of illegal immigration?
    Do you honestly believe those who have broken our laws, in 
fact, have broken many of our laws, including Social Security 
fraud, identity fraud, and lots of others, that they have 
earned the right to be citizens?
    Secretary Johnson. Senator--Congressman, sorry----
    Mr. Broun. I will accept that.
    Secretary Johnson [continuing]. The core----
    [Laughter.]
    Mr. Broun. I am running for Senate.
    [Laughter.]
    Secretary Johnson [continuing]. I have spent a lot of time 
with Senators in the confirmation process, sorry.
    The quote that you attribute to me is a misquote. That was 
a journalist attributing to me something I did not say.
    Mr. Broun. Okay, well, do you think that those here have 
earned the right to be citizens?
    Do you believe----
    Secretary Johnson. No. What I said----
    Mr. Broun [continuing]. That----
    Secretary Johnson [continuing]. What I support is how it is 
reflected in the Senate bill, which was passed by a vote of 67 
bipartisan Senators, which is that those present in this 
country, the 11.5 million or so, who go through a background 
check, are held accountable, who pay their taxes and do 
whatever the law requires them to do, should be eligible to be 
put on the earned path to citizenship.
    Mr. Broun. I disagree.
    Let me interrupt you, sir; I apologize. I just have a very 
short period of time.
    Secretary Johnson. Understood.
    Mr. Broun. I am very concerned about refugee relocation, 
because we are getting a lot of these refugees coming to my 
home State of Georgia. I am not sure that these refugees are 
being vetted as thoroughly as they should be.
    We have a lot coming from places around the world, where 
there are a lot of people who want to do harm to Americans. I 
would like to work with you on this issue because I think this 
is a very dangerous issue of our accepting these refugees in 
this country and not having some way of monitoring them.
    I think we are getting too many. These people are being 
forced upon American citizens in a way that is going to be 
dangerous for our own homeland security.
    I am also very concerned about the Abu Dhabi pre-clearance 
that has been suggested. We have seen TSA allow people who are 
on the No-Fly list get on airplanes. TSA has not in itself 
prevented one terrorist attack.
    Every single terrorist attack that we have seen on this--
against this Nation, that has been prevented has not been 
prevented by TSA. I think TSA has been a total failure as the 
way it is set up now. I think we need to focus upon those who 
want to harm us instead of patting down Grandma and children at 
the airports and having this tremendous attack upon upon 
persons, U.S. citizens, that we need to focus on those that 
want to harm us, which means having the intelligence-gathering 
capability to focus on those and let's get rid of this idea of 
political correctness.
    We need to focus on those that want to harm us. I don't 
think the Department has been. I would like very much to work 
with you as Secretary to try to reform or do something with 
TSA, to make it so that it is functional or get rid of it 
altogether. My time is expired.
    Thank you, Mr. Chairman.
    I would like to work with you as we go forward. Thank you, 
sir.
    Chairman McCaul. Will the Secretary like to respond to that 
last--the question?
    Secretary Johnson. Yes, just very briefly.
    On the issue of refugees, I agree. We should work together 
on that issue. I mean, it is--when I go down to the border, it 
is the No. 1 thing that the people on the front line talk to me 
about. So I would like to work with you on that. I have some 
concerns.
    Just on the initial point, I have told my staff we need to 
be more responsive to this committee and to Congress, when you 
write to me, when you have inquiries, I read each one 
personally. I have told my staff we need very prompt responses 
so that you get the information you need.
    Mr. Broun. I thank you for that reassurance and I look 
forward to working with you, sir. Thank you.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Arizona, Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being with us today and 
congratulations. I think you have taken on what I believe is 
the most difficult job, challenging job in the Cabinet. We all 
wish you well.
    Our mission and your mission, I think, are united in making 
sure that the homeland is protected.
    I also want to thank you for accepting our invitation to 
come down to the border less than a month after you were 
confirmed and sworn in. You came to my district, which is the 
most porous, unfortunately the most porous area of the border, 
where we have 13 percent of the border but have 47 percent of 
the pounds of drugs seized in this country. I know that the 
people I represent appreciate the opportunity to talk with you.
    As you well know from what time we spent together, my most 
important priority is border security. I still have people who 
are unsafe on their land every single day. I still have the 
drugs coming in and illegal immigration is, while getting 
lower, still a major problem.
    But my responsibility, Mr. Secretary, as you know, is to 
make sure that we have the resources we need, along with my 
colleagues, to get the job done to ensure the safety and 
security of people who live and work near the border. This 
includes steps, of course, to support our agents, our Border 
Patrol agents, in particular and, of course, our Customs 
agents, that they have the resources they need to get their job 
done effectively.
    In January, Mr. Secretary, you issued a Department-wide 
memo, calling on all components to conduct a position-by-
position review of the use of administratively-uncontrollable 
overtime or AUO. If it is found that the position uses AUO on a 
regular basis as a regular part of the shift duty, that 
position will no longer be eligible to receive AUO.
    For Border Patrol agents, this policy shift threatens to 
reduce the number of agents or time on the border by as much as 
20 percent. I believe this will undermine the progress we have 
made in securing our border with still work to be done.
    It would also hit our Border Patrol agents and their 
families very hard because they would face a loss of pay due to 
the loss of hours, in some cases up to 20 percent pay cut.
    We have heard in this committee before some reports that 
morale in the Federal agencies is measured and, unfortunately, 
the Department of Homeland Security morale is amongst the 
lowest. Within the Department, CBP is the lowest. I am 
concerned that this adjust or this change will further 
exacerbate the morale problem.
    When we toured the border, we heard very real concerns 
about those who live and work near the border about the 
importance of ensuring safety and security 24 hours a day, 7 
days a week, 365 days a year. I believe now is the time to 
strengthen our position and our efforts, not weaken them, as I 
believe this change in payment will do.
    So I would like to focus my questions, Mr. Secretary, on 
this issue.
    First of all, how do you believe that the policy is in the 
best interest of our security?
    Should the Department and CBP decide to limit or eliminate 
overtime for our Border Patrol agents, what plans does it have 
in place to ensure that there are not big gaps in Border Patrol 
shifts on our U.S. borders?
    Let me ask a second question and if you could answer both, 
there are efforts under way, Mr. Secretary, as you probably 
know, to reform agent pay in the AUO system; specifically, 
there is a bill that was introduced by Mr. Chaffetz, which I am 
a co-sponsor, to reform the pay system in a way that preserves 
security efforts and saves taxpayer money. I mean, I assume you 
are aware of these. If the case you are aware, why would you 
change the AUO system when this reform is under way?
    Secretary Johnson. First, Congressman, thank you for 
spending the day with me in Arizona and introducing me to a 
number of State and local officials there. I appreciated the 
time.
    With regard to AUO, as you know, we have from the Office of 
Special Counsel, allegations, findings, however you 
characterize it, of wide-spread abuse of uncontrollable 
overtime. The review of that is pending right now within the 
Department. I look forward to the results. In the interim, what 
was brought to us was three discrete classes of people who were 
eligible for AUO, that we could not continue to justify paying 
out AUO in that manner, given the allegations of widespread 
abuse. It is very--it is three very, very discrete classes of 
people that total, I think, 900 people across the Department of 
250,000 people, just 900 people.
    The suspension--and I want to emphasize this to you and to 
the workforce--does not affect Border Patrol agents on the 
front lines and people are still eligible for overtime if they 
earn it and they are entitled to it. They just--for those 
discrete number of people, they have to go through a different 
method to get it. But I am fully supportive of paying somebody 
overtime when it is necessary and when they earn it.
    Mr. Barber. Thank you, Mr. Secretary. I yield back.
    Secretary Johnson. I am sorry. I am sorry. The bill you 
referred to, I am happy to review the bill.
    Chairman McCaul. The Chairman now recognizes the Chairman 
of the Border and Maritime Subcommittee, Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman. I 
appreciate the hearing. I certainly want to, and Maritime 
Security as well, welcome the Secretary and thank you so much 
for your service to our country. We look forward to working 
with you.
    I certainly want to add my--express my admiration as well 
for the great work of everybody from DHS in regards to what 
they did with capturing El Chapo Guzman. I certainly want to 
associate myself with the Chairman's very strong feelings about 
extradition and we appreciate your assistance, if you can help 
us with that as well.
    As you might imagine, as a Chairman of the Border and 
Maritime Security Subcommittee, I have a border question. The 
subcommittee there, we have been working very hard on a border 
bill with bipartisan support, actually passed our subcommittee 
unanimously, and then passed the full House unanimously.
    I appreciate your comments about the Senate immigration 
bill. However, I am one that does not agree with the Senate 
immigration bill, the comprehensive bill that they have passed.
    However, I do think that this Congress--and I hope that we 
will pursue moving on a border security bill; that is one of 
the enumerated responsibilities under the Constitution of the 
Congress. I think we have to pursue that.
    So I would ask you, if I could, I made a note when you were 
talking about establishing the metrics, that you agree with the 
goal of establishing metrics. Maybe you could flesh that answer 
out a little bit for me, if you would.
    Your predecessor indicated that the term that we had used 
previously about establishing operational control, the term of 
``operational control,'' she said was an antiquated term.
    Maybe it is, maybe it isn't. But we are trying to 
understand what term might be agreeable, and what the construct 
of those terms actually would look like.
    So then we were looking at this Border Control Index. That 
also has been abandoned now by the DHS. But I do think it is 
important that we do have some actual metrics that the country 
can understand, that the Congress can understand, in regards to 
what kind of control we have at our border.
    As was mentioned, about 40 percent of operational control 
at one point, at the Southern Border--as you know, Secretary, I 
am--I have a Northern Border district. That same study showed 
that the operational control in the Northern Border was only 4 
percent. Essentially, we have no operational control on the 
North Border to speak of.
    So could you tell us a little bit about what your 
Department is doing to develop measures that could give us an 
accurate picture, so that we could, again, understand not only 
our successes, but our failures as well, and so--as we can 
proceed on establishing border control?
    Secretary Johnson. Let me begin by saying that in my 
conversations with the border-security experts in uniform, what 
they emphasized to me is a risk-based approach that is agile, 
that is not necessarily operational control, as I think a lot 
of people define it.
    The risk-based approach is effective. It is cost-efficient. 
Now, in terms of metrics, I have read H.R. 1417, which defines 
an effectiveness rate in a certain way.
    What we have said is that--well, first of all, it is 
Congress's prerogative to define border effectiveness, however 
you do that, in a fully-informed way. What we have said--and I 
tend to believe this--that border security should be defined by 
looking at a number of things. It is not simply the percentage 
of all those who attempt to cross the border who are either 
arrested or turned back. Because you have to look, first of 
all, at the quantity of people who are attempting to cross the 
border.
    You have to look at the nature of the traffic. Is it third-
party nationals? Is it Mexicans? Is it somebody else? You have 
to look at the motives, are these convicted criminals who are 
attempting to cross the borders for purposes of drug smuggling?
    So you have to look at the nature of the traffic, the 
quantity of the traffic. There are a number of things which I 
have looked at, which I have asked my folks to further develop, 
that we can share with Congress in an effort to define what we 
believe is a secure border.
    I would urge us to not focus simply on a percentage, which 
tends to disregard certain other very important things. So it 
is something that I am committed to. I think in order to 
further immigration reform overall, we ought to settle on a set 
of metrics that we all agree to and understand.
    Mrs. Miller. I appreciate that. As I am running out of 
time, this won't be so much a question, as just a heads-up. We 
will be sending you a letter on another issue about visa 
overstays.
    Your predecessor had agreed to give the Congress a report, 
and the percentage of visa overstays, and how you were tracking 
that. That was supposed to be given to the Congress at the end 
of last year.
    So obviously, that deadline has come and gone. We are 
probably going to send that letter along to you shortly, asking 
for that report.
    Secretary Johnson. I have seen a draft of the report. I 
think it needed further work. I think that there were some 
things that I wanted to have some second or third opinions 
about before I shared it with Congress.
    Mrs. Miller. Thank you very much. Thank you, Mr. Chairman.
    Chairman McCaul. Chairman now recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Mr. Secretary, it is a 
real honor and a privilege to have you here today. I am just 
delighted that you were confirmed, and looking forward to your 
leadership in your capacity as Secretary, and also feel that 
you have one of the finest Members of Congress representing you 
from your district. So everyone knows, I am his constituent.
    Let me just start with something that is one of my major 
priorities. That has been the whole issue around Sandy funding. 
One of my major priorities on this committee is ensuring that 
Hurricane Sandy relief reaches the areas that need it the most.
    A portion of that funding, you know, is controlled by the 
State of New Jersey. I am getting disturbing complaints from 
constituents, from the news, from organizations like the Fair-
Share Housing Center, that many municipalities that were 
hardest-hit, including areas where low-income and minority 
populations live, are not receiving the relief proportionate to 
the amount of damage suffered.
    News reports are naturally very concerning to me. In this 
Congress, you know, we failed to have a hearing in reference to 
this. I think oversight is very important.
    I was delighted to go to the floor of Congress that evening 
to implore my colleagues to make sure that we got the relief in 
that area of the country that we need it, and they responded to 
their fellow Americans. So even though it is my area that has 
benefited from that, I still feel that there needs to be 
oversight and responsibility to the American people, that 
Congress knows how those dollars are being spent, irrespective 
of what area it goes to.
    So, you know, I am just asking--like to have you commit to 
ensuring that DHS is conducting proper oversight over the State 
of New Jersey, so that people who are deserving of that relief 
are being provided for.
    Secretary Johnson. Thanks for that question, Congressman. 
First of all, my own home was impacted by Hurricane Sandy, took 
us months to repair the damage. I would also point out that a 
lot of the funds that we refer to when we talk about Sandy 
relief money is Housing and Urban Development money, as well as 
DHS money. There was a lot of HUD money in that mix.
    I would be interested in seeing the report that you 
referenced. I certainly agree with the importance of 
Congressional oversight with regard to how the money is spent.
    Mr. Payne. Okay. A lot of it, as you know, I think a lot of 
the discretion, when it comes to how that money is spent, 
belongs with the State?
    Secretary Johnson. Correct.
    Mr. Payne. But insofar as the Federal Government is 
concerned, I agree with you certainly about the importance of 
Congressional oversight.
    Secretary Johnson. Thank you.
    Mr. Payne. In reference to--it has been brought up on by 
several Members, and the Ranking Member, the whole issue around 
Abu Dhabi and the pre-clearance facility there. You know, I 
know the deputy administrator was in Abu Dhabi last week 
observing the operation there. There is still a lot of concern 
about allowing passengers, once they get here, not to be 
rechecked while they are in this country.
    The other thing, you know, we had issues several years ago 
at Newark Airport, where covert operations were taking place. 
They were able to slip things past the TSA. So we are 
concerned, how often will TSA be afforded the opportunity to 
observe passenger screening in Abu Dhabi? Will TSA and other 
agents of the United States Government be allowed to conduct 
unannounced inspections or covert tests of the screening in Abu 
Dhabi?
    Secretary Johnson. First of all, it is my understanding 
that the pre-clearance operations at Abu Dhabi are conducted by 
CBP, Customs and Border Protection. I am concerned that there 
not be any security gaps when it comes to arrivals as well. 
That is an issue that I intend to look at.
    Certainly, when it comes to Newark Airport, it is an 
airport I am very familiar with. It is probably the airport I 
have used most myself. So I am concerned about security gaps, 
and want to focus on that, and be interested in a further 
dialogue with you, Congressman, on that question.
    Mr. Payne. Okay. Thank you. I yield back.
    Chairman McCaul. Chairman recognizes the Chairman of the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. Secretary, thank you 
for your long and distinguished service to our country. Thank 
you for taking on this very, very important mission. Thank you 
as well for the work that I know you are doing in the area of 
cyber. I look forward to working with you in that area as well.
    But in my limited time, I want to talk about a couple of 
issues: One, the chemical facilities' antiterrorism standards, 
very important work that has been done in our country on this. 
We appreciate the situation in Texas, West Texas, not so long 
ago identifying what happens when there are outliers who are 
allowed to exist without our recognition of their being there.
    Simultaneously or conversely, industries made significant 
investments in responsibly accounting for and also creating the 
kinds of protection systems that have been called for 
underneath the CFATS program. But it has now been 3 years since 
it has been reauthorized.
    Now, there have been some breakdowns in that, to be sure, a 
legacy that has not been too proud from the Department. But at 
the same time, there has been significant progress in the 
course of the last year, and very deliberate efforts to look at 
criticisms that have been taking place, and to address those in 
a proactive sense.
    We have introduced legislation to reauthorize the CFATS 
program. I want to ask whether you believe that that is a bill 
that you can support?
    Secretary Johnson. I have reviewed H.R. 4007. I think it is 
a good bill. I am very supportive of it. Indeed, my folks tell 
me, ``We wish we could extend the period longer.''
    We have a regulatory scheme that we have put in place. I 
agree with you, that over the last year, it has gotten better. 
That all stems from an appropriations measure, not an 
authorizations measure.
    I have read this bill. I think it is a good bill. Our 
critical infrastructure folks think it is a good bill. I 
support it.
    Mr. Meehan. Well, I thank you. I look forward to working 
with you. We may be able to discuss a further extension, if in 
fact we can make sure that we are working simultaneously 
towards the progression, which I think this will allow us to 
do.
    Let me switch hats very quickly. I know you have been 
dealing with the questions of Abu Dhabi, so this is not a new 
matter for you. Although most of these decisions have been 
made, at least while you were overseeing your anticipated 
leadership.
    There have been a series of programs that already exist; 
immigration advisory program, global entry, trusted traveler 
all have been used in the past. Can you explain to me whether 
the stated security goals that we have outlined in Abu Dhabi, 
could not have been realized using those kinds of programs? Or 
do you believe they could have been realized using the kinds of 
programs that currently exist, like you know, immigration 
advisory, et cetera, that I identified?
    Secretary Johnson. Congressman, I think that in general, 
the more opportunities we have to put security in place 
ourselves in last points of departure airports, the better. So 
that bad things don't happen, not just once the terrorist gets 
into the country, but on the airplane, flying into the country. 
I have looked at the various different levels of security at 
our last points of departure airports. It tends to vary and 
that is of considerable concern to me. So, I believe--and I 
understand the concerns that have been raised about 
alternatives. I understand the concerns that have been raised 
from the commercial airline industry.
    I believe pre-clearance is a Homeland Security imperative. 
Now, could things be improved at the point of arrival? Or in 
the Abu Dhabi situation in particular? I am not going to insist 
to you that, you know, we are doing it absolutely the best way. 
But it is a work in progress, I believe--a long road.
    Mr. Meehan. It is just that in making those calculations--
the determination to--instead of going to Dubai where we have 5 
times the amount of--identified going to Abu Dhabi, did not 
make sense to me if in fact that was the policy?
    Secretary Johnson. Well, Abu Dhabi is not an endpoint. I 
think that this is a point along the way in a progression to 
where I think we should get to a more aviation secure 
environment for this country.
    Mr. Meehan. May I close my questioning on this? What are we 
going to do, as we put more resources over there and we are 
saying in the very airport you identified, Newark among others, 
as American citizens flying in from all over the world are 
seeing extended delays in simply getting through. You are 
already down in the form of resources that you need to do to 
work that you are doing. Why are we sending personnel overseas 
during a period of time when you are remarkably under-staffed 
right at our own border?
    Secretary Johnson. In general, the more we can put at, you 
know, in forward areas, last points of departure outside this 
country before the terrorists can get on the airplane to fly 
into this country, the better. I believe that that is a 
Homeland Security imperative, Congressman.
    Mr. Meehan. Mr. Chairman, I respect the 5 minutes. I yield 
back and look forward to working with you.
    Chairman McCaul. Let me also say, I appreciate your support 
for the chemical facility anti-terrorism legislation that Mr. 
Meehan introduced, and as with all major legislation, I hope 
that we can pass that out of this committee in a bipartisan 
way. With that, the Chairman recognizes the gentleman from 
Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you Mr. Chairman. Mr. Secretary, thank 
you for your comments so far and being available to answer our 
questions. As you have heard from other Members of the 
committee, I think the dominant perspective and view when it 
comes to our border, and certainly our border with Mexico, is 
to see that as a threat and a security situation to be locked 
down. While I think that that perspective is understandable and 
I think it is borne of a good intent to secure the border and 
secure the homeland, when you look at the facts, we are 
spending $18 billion a year right now, unprecedented levels of 
spending.
    We have doubled the size of the Border Patrol in the last 
10 years. We have record-low, north-bound immigration attempts, 
record-high south-bound deportations. El Paso, Texas, the city 
I have the good fortune to live in and represent, is the safest 
city in America today, 4 years in a row actually, bordering on 
Ciudad Juarez, the largest--with what is the largest bi-
national community in the world. San Diego is in the top 10 
safest cities, Laredo is in the top 10 safest cities, Honolulu, 
another port city, is among the top 10 safest cities. So, I 
want to hear you talk about the opportunities at the border?
    In El Paso alone, we have 22 million pedestrian and auto 
crossings every single year. It is the lifeblood of our economy 
and it is the lifeblood of who we are as a community. That is 
in addition to the $90 billion in U.S.-Mexico trade that passed 
through there. That trade, that commerce, and that human 
crossing activity support more than 400,000 jobs in the State 
of Texas, more than 6 million in the United States at large, 
and yet those ports of entry in El Paso, in Arizona, other 
parts of the U.S.-Mexico border, are sorely understaffed. What 
is your proposal and plan to make sure that we have the 
resources to capitalize on the opportunities at the U.S.-Mexico 
border?
    Secretary Johnson. In this job, Secretary of Homeland 
Security, it has been made very clear to me that part of my 
mission is to facilitate and expedite trade. Whether it is on 
the Southwest Border or the Northern Border. You know, for 
example, the Canadians have talked to me about our bridge 
crossings in Michigan and the importance of building--funding a 
Customs plaza on the U.S. side in Michigan. Same with Texas, 
with south Texas, where I was a couple of weeks ago. I haven't 
been to El Paso yet, but I hope to go there soon. But, it has 
been stressed to me the importance of, as a matter of Customs 
enforcement, facilitating and promoting trade.
    Now, that also depends on Congress being willing to fund at 
the appropriate levels, our Customs plazas, our ability on the 
U.S. side of a bridge or a land port to be--you know to build 
these things. So we need Congress to authorize and appropriate. 
But I want to work with you on that, and I recognize the 
importance of promoting trade. Whether it is El Paso, or 
Detroit, or any of our other ports of entry.
    Mr. O'Rourke. I appreciate that answer, and I will do my 
part as a Member of Congress, to make sure that we have those 
resources there. But even within the existing DHS budget, I 
just urge you to deploy those resources and assets as 
intelligently and as effectively as possible to capitalize on 
those opportunities that we have there.
    I want to associate myself with Mr. Barber's remarks 
earlier about supporting our men and women in the Border 
Patrol. They have among the toughest jobs that I can imagine. 
The level of vigilance required, the terrain that they are 
working within, the encounters that they have to deal with.
    So I also join him in urging you to support Mr. Chaffetz's 
bill to make sure that we have some fairness and predictability 
when it comes to pay for the members of the Border Patrol. But 
I also want to make sure that we have the appropriate oversight 
and accountability for law enforcement on the border. I 
appreciate the fact that you are going to release the CBP's Use 
of Force Policy. I would also ask you to release the Police 
Executive Research Forum's report on CBP's use of force. Right 
now, we only know about these use of force incidents 
anecdotally. I get them in my office regularly, and I also hear 
far too often from these 22 million bridge-crossers, a lack of 
respect, and sometimes poor treatment and sometimes abuse at 
the hands of CBP Officers on our border.
    We need greater oversight and accountability given the 
missions and the opportunities there at the border. So, I would 
just ask you to release that. Also as one of the other Members 
of the committee said, become more transparent and accountable 
as an agency. I think that has been a major failing of DHS up 
until now.
    Secretary Johnson. I will look at this particular report 
you refer to, Congressman. I agree generally with the 
importance of law enforcement being credible, and being 
transparent in the communities in which they operate. If law 
enforcement--and you see this also in the military context, is 
viewed with suspicion, is not credible, it undermines the 
entire mission.
    Mr. O'Rourke. Great. I appreciate that. Thank you very 
much. Thank you Mr. Chairman.
    Chairman McCaul. The Chairman recognizes the Chairman of 
the Subcommittee on Oversight and Management Efficiency, Mr. 
Duncan.
    Mr. Duncan. Thank you Mr. Chairman and thanks for this 
hearing. Secretary Johnson, thanks for being here, and I am 
impressed with what I have seen so far, and I look forward to 
working with you on an on-going basis.
    In your statement, you talked about being responsive to 
inquiries and letters from Members and committees of Congress. 
I just want to bring one example to your attention. June 16--
June 6, 2013 letter to Under Secretary Borras dealing with 
training videos that has never been answered. I will make sure 
my staff gets your guys a copy of that so that it can be 
answered.
    Secretary Johnson. Happy to do that, sir.
    Mr. Duncan. Yes, thank you. Thank you for that. Because I 
think that is important. That is part of the oversight 
function. Oftentimes we can't have hearings, but we can send 
direct inquiries to the agencies and the departments for 
request of information. I sat here earlier thinking about all 
of the things you are responsible for. It is sort of 
overwhelming. Border security, immigration, customs 
enforcement, USCIS, maritime and port security, the Coast 
Guard, transportation security, air security, Secret Service, 
law enforcement training, cyber threats, FEMA, and all of the 
things that our committee deals with. That is a tremendous 
responsibility that you have to keep this Nation safe.
    I just want to make sure that the folks watching at home 
understand the Department of Homeland Security brought 22 
agencies together, our sub-agencies, under one umbrella. In the 
last decade or a little more, trying to make sure that all of 
those operate in a very cohesive fashion. So, I fully 
understand the challenge. I just want to go on the record for 
that.
    I want to shift gears and talk about something that is on 
my mind regularly as we talk about immigration reform. Because 
the numbers that were used today, roughly 11.5 million--say 12 
million illegal immigrants in the United States. Roughly 40 to 
49 percent of those didn't just violate our sovereignty by 
crossing our border--Southern Border, Northern Border, doesn't 
matter.
    They actually violated the National trust that we have 
placed in them. Because we gave them a permission slip to come 
here, known as a visa. Where they had an interview at a 
consulate or an embassy and we have the correct spelling of 
their name. We have got a picture, probably a fingerprint. We 
know where they were going in most instances. We know they were 
going to work, or coming to school. Tourists? I get that, that 
they could travel just about anywhere. But, we have got an 
address of where a lot of these folks were going. Where they 
were going to work, or where they were going to attend college. 
Roughly half of the illegals in this country, I estimated 4.8 
million to 5.8 million people that are here illegally, 
overstayed their visa. They didn't just cross the border. We 
gave them a permission slip to come into this country, and they 
violated our trust. This is low-hanging fruit from a customs 
and immigration enforcement issue. So the question I have for 
you is, don't you think that we should work real hard, because 
the information that I have--that ICE devotes less than 2 
percent of its investigative resources investigating these 
overstays. Less than 2 percent, but we know who these people 
are.
    This isn't chasing a footprint in the desert. So don't you 
think we ought to ramp up that percentage, put more effort in 
effectively enforcing the immigration laws that we have with 
regard to these overstays, either getting them back into a 
legal status if they are still attending college somewhere or 
still gainfully employed, but deal with half these illegals 
before we take on a whole 'nother avenue of immigration 
enforcement?
    So I would love to hear your thoughts with regard to these 
overstays, enforcement policies, and dedication of ICE 
resources to investigating these.
    Secretary Johnson. First of all, I don't know that the 
number is 40 percent. Forty percent has kind of worked into the 
narrative based on a report that was done some years ago. It is 
my understanding that is not a Government report.
    I don't know that it is 40 percent.
    Mr. Duncan. Well, use whatever percentage we want, 20 
percent, 25 percent, 30 percent, 15 percent, it doesn't matter 
to me. It still remains that this is low-hanging fruit of 
information we know about these people. We know who they are. 
So I will----
    Secretary Johnson. I do agree that we should correlate 
resources to the removal of--and the way in which we say we 
ought to prioritize my removals. In my view, as a matter of 
homeland security, we need to prioritize our removals with 
regard to National security, public safety, border security 
threats, as a matter of homeland security.
    If in the category of visa overstays there are those people 
we need to focus on going after those people----
    Mr. Duncan. They are a National security threat. So----
    Secretary Johnson [continuing]. Public safety threats, 
which involve those convicted of serious crimes and border 
security threats, you know, people who are recent border 
crossers who are apprehended in and around the border, who are 
repeat crossers and the like, the people who represent threats 
to border security.
    I agree entirely with your point that we ought to correlate 
resources with our priorities. We've got to devote the 
resources to meet what we say should be the priorities. My 
priorities are homeland security, protecting the American 
people, enforcing our immigration laws. We need to correlate 
our resources in that way.
    Mr. Duncan. Thank you for that. I will just remind the 
committee, I believe that 7 of the 10 hijackers on 9/11 had 
overstayed a visa.
    I yield back.
    Secretary Johnson. I understand your point.
    Chairman McCaul. The Chairman will now recognize the 
gentlelady from Hawaii, Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Welcome and aloha, Secretary. Great to have you here with 
us.
    You have touched on a lot of different topics today that I 
look forward to being able to address that really impact us 
Nationally from cyber threats to domestic drone use and the 
policies that we need to come up with as we look at this new 
technology, duplication of resources, aging Coast Guard fleet, 
and so on and so forth.
    I also want to welcome you to come and visit Hawaii. I know 
you have been there before, but to come in this capacity, 
because there is nothing like seeing first-hand the challenges 
as well as the opportunities that we have that are unique from 
the rest of the country, from the District 14 Coast Guard, 
which covers, by far, the largest sector of any district that 
the Coast Guard has responsibility over, and the unique 
implications of what they do on the international front, 
engagement, diplomacy, the exclusive economic zones that they 
patrol, it is really quite impactful what they are responsible 
for and how they have done so well with such little resources.
    Also just to touch on the portal that exists in our State, 
both the air portal and the international port are really being 
the gateway between Asia and the United States as well as in 
our maritime ports.
    Since 1996, we have had two international airports in the 
State of Hawaii, the primary, which is the Honolulu 
International Airport and the Kona International Airport.
    Kona was able to accept flights and we had Customs and 
Border Patrol operating from there up until 2011. This is a 
situation I know that you are familiar with and that we are 
trying to remedy. The CBP has stated basically that the 
facilities at the Kona airport were insufficient in 2011. The 
airport facility staff sought feedback from CBP in 2012, were 
given a book of regulations, 295 pages, that was dated in 2006, 
told to look through it and update the facility.
    The following year, they were given an updated book in 
2011, said, oh, well, this is the updated version.
    I think our folks on the ground have been really proactive 
in trying to make sure that we are able to meet CBP standards 
and are requesting a 5-year exemption so that we can continue 
to operate as we were up until 2011, which is important from an 
economic perspective, but also from a security perspective, if 
anything were to happen at the Honolulu International Airport, 
that we have another gateway and we have another facility 
there.
    So I am wondering if you can comment on the status of that 
request that is supported by the mayor on the ground as well as 
by the Governor.
    Secretary Johnson. I have your letter in this regard. I 
will probably get myself into trouble by saying that I have 
been to Kona Airport and it is probably the most pleasant 
airport experience I have had in a very long time. It is a 
very--I also--I recall that when you can fly from Kona to the 
mainland, and I don't think it was in the early 1990s. I am not 
sure you can do that anymore.
    Ms. Gabbard. You can.
    Secretary Johnson. I know the burden of being on a multi-
hour flight to Honolulu and then you got to change planes and 
fly to Kona. So I know the inconvenience of that.
    So I would like to see us work with local airport officials 
to try to get to a place where you can have an international 
arrivals capability. I am--you know, you make a good point, 
that if you lose one you don't have a second.
    So I would like to see us try to work together on that. I 
do believe, however, that we can't do something that is going 
to potentially compromise aviation security, Border Patrol 
security, and so I am personally familiar with the Kona 
airport. Happy to try to work with your constituents, represent 
local officials in this regard, to get there with the concern 
for security.
    Ms. Gabbard. Thank you. I appreciate being able to work 
with you on that. Understand that the private sector is also 
very much invested in helping to bring this about. Applied for 
a reimbursable agreement, was denied by CBP, and hope to become 
one of the other cities that will be approved at some point in 
the future.
    I want to touch quickly on airline fees with the budget 
that was passed recently, some of these fees that directly 
impact airline travel were increased in part to help pay for 
CBP to help pay for TSA. I am going to be an advocate here for 
the two non-contiguous States, Hawaii and Alaska, where air 
travel is essentially our only option. This is not an area that 
is a luxury, but one that is essential for business, for health 
care, for education and look forward to working with you on 
seeing how we can, as has been done in the past, make sure that 
these two States are considered differently.
    Secretary Johnson. I have your bill in this regard. I have 
read your bill. You know, I am interested in studying it 
further.
    Ms. Gabbard. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Utah, Mr. Chaffetz.
    Mr. Chaffetz. Oh, thank you, Mr. Chairman.
    Thank you and congratulations, Mr. Secretary. I look 
forward to working with you. I think you properly pointed out 
in your testimony that people are your greatest asset.
    One of the areas of concern that I have is how do we do 
security clearances, background checks on the personnel? The 
overwhelming majority of people, good quality people; I do have 
questions and concerns as I highlighted in a letter more than 2 
weeks ago about your current chief of staff, Mr. Christian 
Marrone.
    When and where did you first meet Christian Marrone?
    Secretary Johnson. First of all, I have your letter. You 
asked that I respond by the 26th, which is today, and I will be 
responding today.
    Mr. Chaffetz. Thank you.
    Secretary Johnson. In a timely fashion.
    I first met Mr. Marrone in early 2009 at the Department of 
Defense.
    Mr. Chaffetz. Was there a background check conducted on Mr. 
Marrone before the appointment you made to his being the chief 
of staff?
    Secretary Johnson. You mean chief of staff for DHS?
    Mr. Chaffetz. Yes.
    Secretary Johnson. Yes, to the best of my understanding, 
there was.
    I also know him for 5 years and know his qualities. I am 
glad I hired him.
    Mr. Chaffetz. So there was a background check. Did you 
review that background check?
    Secretary Johnson. Not myself, no.
    Mr. Chaffetz. Who did read it?
    Secretary Johnson. The appropriate officials, I am quite 
sure. My understanding is that the background check was quite 
thorough, which included matters of public record from the Fumo 
trial, which is what your letter refers to.
    Mr. Chaffetz. Did the White House review it?
    Secretary Johnson. So far as I know, they did.
    Mr. Chaffetz. Were there any----
    Secretary Johnson. As is the standard practice.
    Mr. Chaffetz. Did it reveal any concerns?
    Secretary Johnson. Mr. Marrone's background was viewed 
extensively, including the matters of public record. I have 
every reason to believe that it was thorough, and we hired him, 
and I am glad we did. He is doing an excellent job for the 
Department.
    Mr. Chaffetz. Who conducted the background check?
    Secretary Johnson. I could not tell you that, sir.
    Mr. Chaffetz. Are you aware of any court judgments against 
Mr. Marrone?
    Secretary Johnson. Not sitting here right now, no.
    Mr. Chaffetz. When did you become aware of the trial 
involving Pennsylvania State Senator Vincent Fumo?
    Secretary Johnson. In 2008.
    Mr. Chaffetz. Did you--when did you first become aware of 
Christian Marrone and his testifying in the trial involving 
Vincent Fumo?
    Secretary Johnson. In 2009.
    Mr. Chaffetz. Did you review, are you aware of the city of 
Philadelphia's forensic review and financial investigation into 
three of the entities that Mr. Marrone was involved and engaged 
in?
    Secretary Johnson. Not specifically, no, sir, but I would 
like to say that I hired Mr. Marrone because he was working for 
Robert Gates and Robert Rangel in the front office of the 
Secretary of Defense. Those two individuals are demanding, 
scrupulous people who expect the highest of people.
    Mr. Marrone impressed me while we worked together at DOD 
for his administrative organizational skills, his ability to 
put together a budget process, and his ability to identify 
inefficiencies.
    I hired him at DHS to do the same there. He is doing an 
excellent job. He is doing the job that I think Members of 
Congress would want us all to do for the Department.
    Mr. Chaffetz. Were you aware when you selected Mr. Marrone 
to be your chief of staff at Homeland Security that he made 
personal use of moneys from tax-exempt charities?
    Secretary Johnson. I was generally aware of his public 
testimony. It was highly-publicized and it concerned events 12-
17 years ago. I am more focused on the last 5 years, when he 
has worked in National security.
    Mr. Chaffetz. Were you aware when he was hired that, at one 
time, he secured in writing from Mr. Fumo approval for the 
retention of a private investigator to ``snoop'' on then-mayor 
of Philadelphia, Ed Rendell?
    Secretary Johnson. As I said, his employment by Senator 
Fumo, 12 to 17 years ago, when he was in his early 20s, is a 
matter of public record. It was highly publicized. Anybody who 
knows Christian Marrone knows that when he came out of college, 
12-17 years ago, he worked for Senator Fumo.
    If you don't, you could figure that out by spending 6 
seconds on the internet.
    Mr. Chaffetz. That is exactly my concern is that he has 
been engulfed in a variety of controversy.
    Have you reviewed this e-mail that Christian sent, this is 
on April 21, back in 1998, concerned about the Department must 
change its practices of hiring. He is referring to the 
Philadelphia Police Department, where he says, ``The end result 
has been the skipping over of qualified white candidates and 
the hiring of minorities with criminal records.''
    He wants--he advocates changing the city charter, and 
again, goes on--I will give you the full e-mail, if you haven't 
seen it, ``The result is an uneducated, unskilled, and 
unqualified department of minority officers.''
    I would think that this would cause concern in addition to 
all the public things that are out there about Mr. Fumo; I 
would encourage you to please look at the public record 
regarding judgments.
    My time has expired, Mr. Chairman.
    But I do hope to chat with you on this. I was disappointed 
when I asked if I could come see you personally and talk to you 
about this, I was told no. I couldn't do that.
    Secretary Johnson. I actually was told that you wanted to 
talk to me. I said, yes, I am happy to talk to the Congressman. 
But for some reason, you were unavailable.
    I am happy to talk to you further about this issue.
    Mr. Chaffetz. I would love to come sit down with you and 
talk to you about it. I have great concerns about this.
    Secretary Johnson. May I respond, sir?
    Chairman McCaul. Yes, Mr. Secretary,
    Secretary Johnson. Congressman, I am focused on trying to 
make the Department of Homeland Security a more efficient and 
effective place for the benefit of the public, for the benefit 
of the taxpayers.
    I have known Mr. Marrone since 2009, when he worked for 
Robert Gates. Secretary Gates held him in the highest regard. I 
hired him to be our chief of staff because of his 
organizational administrative skills over the last 5 years, 
that had been demonstrated to a lot of people.
    Since he has come to the Department of Homeland Security, 
my expectations for him have been, in fact, exceeded.
    This is a man who has three young children. He is married. 
He is at work at 5 a.m. He is streamlining our organization. He 
is making the Department of Homeland Security a more efficient 
place.
    He is putting together a budget process, something that 
people on this committee and in this Congress have been after 
us to do for some years.
    He is doing an excellent job for the benefit of the public 
and the taxpayer.
    Mr. Chaffetz. Mr. Chairman, I appreciate the excess time.
    But three of the entities he was involved with, the 
inspector general of the city of Philadelphia said was 
fraudulent, misrepresented, misspent money, and overspent some 
$5-million-plus that they want to get back in the city of 
Philadelphia. That is the concern.
    Chairman McCaul. The gentleman's time has expired.
    We have 10 Members left. The Secretary has agreed to stay 
until 12:15. So I would ask unanimous consent that all Members 
limit their questions to 3 minutes, so we can accommodate all 
the Members.
    The gentleman from California, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. Welcome. We 
do look forward to your leadership.
    Secretary Johnson. Thank you.
    Mr. Swalwell. A quick question about the Urban Area 
Security Initiative program, known as UASI. The Department 
develops a risk score for UASIs by looking at factors like 
population, military assets, critical infrastructure, et 
cetera.
    But some UASIs fund additional counties and neighboring 
areas that have close economic and military ties that are in 
the commute areas.
    For example, in the Bay Area, where I am from, San 
Francisco, we have 5 of the--we have 12 counties, but 5 are not 
included in our Urban Areas Initiative grant.
    We are wondering and hoping if the Department can work with 
us to consider other assets and population and cultural and 
economic ties to bring into the Bay Area's footprint some of 
these surrounding counties, because they do include Travis Air 
Force Base, the Defense Language Institute, and a number of 
other important assets.
    Secretary Johnson. I am very familiar with the Bay Area and 
all that it includes. I have spent considerable time in the Bay 
Area. I am happy to take a look at this issue and work with you 
more on it.
    Mr. Swalwell. Great.
    The second question, with respect to immigration 
enforcement priorities, I know, being a former prosecutor, that 
how you classify different crimes is important. Right now, 72 
percent of individuals removed were convicted of Level 1 or 
Level 2 offenses. A Level 1 offense can include an aggravated 
felony, and a Level 2 offense can include multiple 
misdemeanors, which also could be driving without a license, 
which, of course, if an undocumented person is here, they would 
not be able to obtain a license.
    I want to make sure that we are focusing on removing the 
most serious and violent offenders, and not necessarily 
breaking up families that are--especially my concern, being a 
former prosecutor, was people would commit crimes that were--we 
would call it a crime for driving without a license, but, up 
until just a couple months ago in California, an undocumented 
person could never receive a license.
    So were you focused on more violent individuals when we 
prioritize removal?
    Secretary Johnson. I am committed--and I am continuing a 
continual evaluation and reevaluation of our prosecution 
priorities and ensuring that we are operating and acting in 
accordance with those.
    So it is something that I am going to continually look at.
    Mr. Swalwell. Great.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Again, thank you so much, Mr. Secretary. We look forward to 
working with you.
    Chairman McCaul. The Chairman recognizes the Chairman of 
the Subcommittee on Transportation Security, Mr. Hudson from 
North Carolina.
    Mr. Hudson. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being with us here today.
    I am extremely concerned and upset about the cost, overall 
cost, and the delays of the new Department of Homeland Security 
headquarters at St. Elizabeth's campus.
    The cost has now ballooned to something like $4.5 billion. 
A completion date has moved out from 2015 to 2026. Frankly, I 
just fail to see how this is an appropriate use of the taxpayer 
dollars, to spend this kind of money for a headquarters, and 
just really disappointed in the way it has played out.
    You know, I understand, when you are consolidating 22 
agencies, this is a very difficult process. I understand the 
command-and-control concerns of having your agency scattered 
all across the region.
    But to put this in perspective, the world's tallest 
building only cost a billion dollars and it only took a 
fraction of the time to build.
    Frankly, I think the way we are going about this, by trying 
to take these historic buildings that are crumbling and trying 
to bring them up to speed and build a facility is the wrong way 
to go.
    I mean, I am a history major, so I am trying to contemplate 
or even comprehend this type of money. You talk about $4 
billion, it is a quarter of the amount of money we spent to 
rebuild Japan after World War II, and it is 3 years longer.
    I was doing some math, and $4 billion, if you were to stack 
dollar bills, would be as tall as a thousand Empire State 
Buildings.
    I mean, this is an incredible amount of money for a 
headquarters when we have got so many other needs in Homeland 
Security and other things, when we are borrowing 40 cents of 
every dollar we spend.
    I realize that decisions were made on these headquarters 
before your tenure and, frankly, before I got here. So, my 
question to you is: Will you be willing to work with us? Can 
you go back to the drawing board and let's come up with a 
better plan that doesn't cost us $4.5 billion to meet the needs 
of the Department?
    Secretary Johnson. I have asked my folks to work with GSA 
on a plan going forward.
    My general observations about St. Elizabeth's: First of 
all, it is a wonderful place. The Coast Guard is headquartered 
there now.
    It is a terrific place. I am envious. But I will probably 
never work there.
    From my Pentagon experience, I do believe there is a value 
for the, you know, ``One Team, One Mission'' message, if you 
have all the components in one headquarters. I have seen that 
at the Pentagon.
    In the E-Ring, you have got DOD. You have got Army, Navy, 
Air Force, Marine Corps, all in the same square footage. There 
is value to that.
    I think that the morale of DHS, unity of the mission, that 
emphasis would go a long way if we could get to a headquarters.
    I also believe we ought to finish what we started. You 
know, we are investing a lot of money in this project. There is 
a certain wisdom to finishing what you start. Then the question 
becomes the time line pursuant to which you finish it. So, we 
have got some years ahead of us.
    But I have asked my folks to work with GSA. So I have some 
of the same questions you do.
    Mr. Hudson. I appreciate that. I know I am out of time, but 
finish what you started. If you are in the middle of a huge 
mess, you stop digging. We are in the middle of a boondoggle of 
epic proportions. I would just say we need to look at starting 
over.
    We could build a skyscraper up on that mountain, and put 
the whole Government in it for that kind of money.
    Let's look at a new plan.
    But I look forward to working with you.
    Chairman McCaul. The gentleman's time is expired. I now 
recognize Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, I just wanted to get back to the Northern 
Border and security. I represent Buffalo, and we have the Peace 
Bridge. It connects Buffalo to southern Ontario, which is a 
population center of 8 million people.
    Secretary Johnson. Sorry I couldn't be there Monday.
    Mr. Higgins. What is that?
    Secretary Johnson. Sorry I couldn't be there Monday.
    Mr. Higgins. You were missed. But it was a good event, and 
we are making progress.
    It is the second-busiest Northern Border crossing between 
the United States and Canada. Forty billion dollars in trade 
crosses the bridge every year.
    In previous hearings here, on Hezbollah, which is a Shia 
terrorist organization bent on violent jihad, it was disclosed 
that Hezbollah has a presence in North America, including 15 
American cities and two major cities in Canada.
    In the post-9/11 era, the one thing we know clearly is that 
terrorists seek to destruct and kill, but they also seek to 
disrupt our way of life. So they seek out high-impact targets.
    Around the Peace Bridge--we have no other Peace Bridge. As 
I said, second-busiest Northern Border cross between the United 
States and Canada, but also Niagara Falls, destination of some 
20 million visitors from every country in the world, every 
year. A high-impact target.
    The Niagara Power project produces the largest, the most 
hydroelectricity in all of New York State. A high-impact 
target.
    Toronto, an international city, a high-impact target.
    Earlier, last year, a terrorist plot was thwarted that was 
targeting a passenger train from Niagara Falls to New York 
City.
    So I just wanted to make you aware of that and get your 
thoughts on it quickly. Thank you.
    Secretary Johnson. Thank you for that, Congressman.
    I am aware that some of the most serious border threats can 
be threats to the Northern Border. They are of a different 
character and kind from the threats on the Southwest Border. I 
appreciate that.
    I also recognize the importance of facilitating trade in 
places like the Peace Bridge and I know that you and Senator 
Schumer and others have been very focused on that and I 
congratulate you for those efforts.
    The Northern Border is one I expect to get to very soon in 
my travels so I can study this issue further. I agree with your 
concerns regarding security.
    Mr. Higgins. Thank you. With that, I yield back.
    Chairman McCaul. I thank the gentleman for yielding back 
time. Chairman now recognizes the gentleman from Pennsylvania, 
Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman and thank you Mr. 
Secretary for coming here today. As was noted earlier, today is 
the 21st anniversary of the 1993 World Trade Center bombings as 
you well know.
    Mahmud Abouhalima is one of the terrorists who perpetrated 
this attack. He overstayed a tourist visa and received amnesty 
when comprehensive immigration reform was passed in 1986. He 
claimed that he was really a cab driver, but he claimed to be a 
seasonal agricultural worker. The only thing he ever planted in 
America was a bomb.
    Terrorists in this country need to find a way to remain 
here legally and not be deported. It is possible and likely 
that there are people in this country illegally who have 
connections to radical groups in the Middle East.
    Secretary Johnson, my question is that employees within the 
DHS say that they are pressured to rubber-stamp citizenship and 
visa applications and lack the resources to adequately 
investigate applicants.
    I was a mayor, and I am very aware of what is involved in 
doing criminal background checks. If we do not conduct face-to-
face interviews in these background checks, how can we be sure 
that we are not gonna legalize individuals who have connections 
to radical groups in the Middle East as any part of any 
immigration reform that is being discussed here?
    You know again, I have seen the other side of illegal 
immigration. I know we talk a lot about, you know, the good 
people who are here just working. But, you know, I have seen 
the criminal aspect and the drug dealers.
    How are are you going to separate salt from sugar if we are 
not going to do face-to-face interviews and investigate the 
backgrounds of these people and their country of origin?
    Secretary Johnson. First of all, Congressman, thank you for 
that question.
    When it comes to counter-terrorism, I don't think I take a 
back seat to anybody, and I think my track record in National 
security demonstrates that. I am most concerned about 
identifying individuals of suspicion who have terrorist motives 
in this country or who want to come into this country.
    Regarding the complaint that some may feel pressure to 
rubber-stamp a visa application, I have heard this before. It 
is something I have asked about. I have asked my folks to look 
into it. I am interested in the subject and it is something 
that I am willing to engage with your office about so that we 
can both understand the nature of it.
    Mr. Barletta. Could you address the face-to-face 
interviews? How are we going to conduct background checks on 
any immigration reform without doing those type of very, very 
time-consuming----
    Secretary Johnson. I have asked the same question, so.
    Mr. Barletta. I would like to work with you if we can, I am 
very concerned.
    Secretary Johnson. Yes.
    Mr. Barletta. Thank you.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Nevada, Mr. Horsford. Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman, I will be brief.
    Mr. Secretary, thank you for being here today. Earlier this 
week I had the opportunity to meet with my sheriff from Clark 
County, as well as our fire chief and 12 local first responders 
from agencies throughout Southern Nevada.
    During this meeting, they expressed concern that the 
current risk-assessment model does not factor in considerations 
that are unique to tourism-centered locations such as Las Vegas 
and that the model seems to be moving more to a response and 
recovery approach and not as much a focus on prevention.
    The Attorney General, Eric Holder, who has visited this 
southern Nevada fusion center considers it to be the model for 
how agencies should be working together.
    The officials with whom I met believe that they were not 
sufficiently involved in the risk evaluation process and that 
FEMA did not take advantage of their local expertise as first 
responders.
    Now, I know these concerns apply to other cities throughout 
the country, beyond Las Vegas in the last year, including 
places like Orlando and New Orleans who have also fallen off 
the UASI list.
    But I also know that you have inherited this model. So as 
you lay the foundation for this new Department of Homeland 
Security under your administration, I would like to ask for 
your commitment to work with me and other colleagues on 
addressing issues with the risk assessment model that does not 
adequately factor the unique characterizations and needs of 
tourism-based economies like the one I represent.
    I want to personally invite you out to our community to 
meet with our Fusion Center representative as well as the 
public and private sector who have concerns about the fact that 
we have moved away from this focus on prevention.
    I want to ask if you will review that model, going forward, 
and if you will take me up on my invitation to come to Las 
Vegas.
    Secretary Johnson. You are correct that I have inherited 
the model, but I now own it, so it is mine. I have heard this 
issue before, and not just from a Congressional representative 
in Nevada and I am willing to review it, work with you on it to 
make sure we have gotten it right.
    I understand the concerns around potential threat to 
tourism, so I get that.
    Mr. Horsford. Thank you. Again, I would like to----
    Secretary Johnson. I would welcome the opportunity to visit 
Nevada again.
    Mr. Horsford. Thank you. Yes, the Fusion Center is a great 
place and again, I think it is a model as the Attorney General 
Eric Holder has said for how local State and Federal agencies, 
public, private entities can work together to proactively meet 
our security needs.
    Thank you, Mr. Chairman.
    Chairman McCaul. The gentleman from Pennsylvania, Mr. 
Perry, is recognized.
    Mr. Perry. Thank you, Mr. Chairman. Mr. Secretary, welcome 
and congratulations, you have got a tough job.
    Recently, a DHS drone was used to assist local law 
enforcement in apprehending a North Dakota man after a dispute 
with some cattle.
    It is my understanding the drones are to be used to assist 
in the apprehension of illegal immigrants who cross the border, 
not for domestic surveillance of American citizens.
    Also, in 2014, we appropriated almost a billion dollars 
towards CBP's Office of Air and Maritime, which includes 
unmanned aircraft operations for the robust airborne 
intelligence, surveillance, and reconnaissance to extend the 
reach of CBP's drug interdiction and border security operation.
    Not to indict you for the sins of the past and your 
predecessor, but there were often cries that the Department 
or--didn't have enough money, didn't have the funds to carry 
out its mission.
    I am wondering if--two things--if this is going to continue 
the use of DHS drones for law enforcement regarding American 
citizens? If it does--and if it is, then shouldn't we consider 
the budget in that regard and, you know, are you really that 
short in funds if you are using the asset that had been 
appropriated for the Department for specific reasons and then 
is used elsewhere for local law enforcement?
    Then how do you know, are you going to continue that 
policy? Then how do you determine--I mean, maybe the community 
I represent is interested in using DHS drone for law 
enforcement, but how do we get in the queue then?
    So, just like to get some of your thoughts on----
    Secretary Johnson. My general comment is this: I think that 
surveillance, including aerial surveillance, is very important 
for border security. Border security is one of my missions.
    I want to be sure, as we go forward with this technology 
that we are also providing adequate assurances, safeguards, 
protections, when it comes to the privacy of our citizens who 
live in and around the border.
    I want to be sure we further refine our policies in that 
regard if we are going to continue to conduct surveillance 
along the border.
    With regard to your specific question about uses for law 
enforcement and funding, I would have to get back to you on 
that. But my general view is that there is an important need 
for surveillance for purposes of border security and that is my 
primary----
    Mr. Perry. I agree with you, and I don't want to interrupt 
you. But I have got just a few moments left.
    The Washington Times reported that the DHS had lent border 
drones out to local State and Federal agencies hundreds of 
times, so I just want to--and so that is domestic--that 
surveillance of American citizens, is it generally your theme, 
or something that you would accept that you would continue in 
that regard?
    I am asking from privacy standpoint, from a legality 
standpoint and from a funding standpoint, is the Department 
going to continue to do that?
    Secretary Johnson. Look, my principle--my priority is 
border security, that is part of the homeland security mission. 
That is my priority.
    If I have surveillance technology that Congress has funded 
and given to me for that purpose, that is my priority.
    Mr. Perry. For Americans or for people on the border that 
are coming----
    Secretary Johnson. For border security. For----
    Mr. Perry. Only?
    Secretary Johnson [continuing]. Border crossings, I can't 
say solely, there may be some instances where for a very 
important law enforcement objective, we might support some 
local law enforcement's efforts at drug trafficking or 
something of that nature. So I wouldn't rule that out.
    But the principle reason they are there is border security.
    Mr. Perry. Thank you.
    Chairman McCaul. The gentleman's time has expired.
    Gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman, and welcome 
Mr. Secretary. I am going to just give you my questions and 
then have you respond, given the time constraint.
    It is good to hear that you support the CFATS legislation. 
It is my understanding, however, that DHS is currently engaged 
in a working group whose recommendations will be coming out in 
May. So I just want to get your feedback as to whether you 
think it would be great for us to be informed by what the 
working group comes out with as we move forward to bring forth 
legislation.
    I also want to raise the issue of personnel surety. This is 
a--the direction that NYPD is going with components of CFATS 
raises some issues of long-standing concerns to this committee.
    Lack of standardization and harmonization in the area of 
personal surety requirements across critical infrastructure 
sectors. If you would address that.
    Then, finally, just a comment. I want to applaud you on 
your commitment to comprehensive immigration reform and add my 
voice to encourage you to prioritize those who we are looking 
at in terms of their immigrant status when we are looking at 
removals. That--if we can drill down into the agency to look at 
that categorization, because I believe that comprehensive 
immigration reform is inevitable. The status quo just can't 
hold. But, we are also dealing with the fragmentation of 
families, and oftentimes the breadwinners of those families.
    Having said that, I look forward to your response, sir.
    Secretary Johnson. Yes ma'am, first my general attitude is 
if we have got a good bill and there is an opportunity to pass 
it in this Congress that supports my goals and objectives, 
enhances homeland security, I am going to support that measure.
    If there is support for it, it is a good bill--I think we 
in the Congressional and Executive branches owe it to the 
American people to try to get something done. So that is my 
general attitude and I think that this bill is a good bill.
    I believe we need to continually evaluate our removal 
priorities to make sure we are getting it right, the removal--
border threats are--you know, it is a fluid situation. You have 
to continually re-evaluate it and that is what I am doing.
    I am sorry that I have forgotten your second question.
    Ms. Clarke. Yes, it was about the personnel surety program.
    Right now, we are dealing with an issue of background 
checks and credentials across several agencies and the 
redundancy of that. Would you give us your----
    Secretary Johnson. I am very interested in achieving 
greater efficiencies and that is a directive that I have given 
to my staff to look for, whether it is with regard to 
background checks or a number of other items.
    Ms. Clarke. Thank you.
    Chairman McCaul. Gentlelady's time is expired.
    Mrs. Brooks.
    Mrs. Brooks. Thank you, Secretary for being here and for 
sitting here even longer than you were expected.
    In the past two budget cycles, the President's proposed 
consolidating several of the Homeland Security grant programs 
administered by FEMA into a National preparedness grant 
program, but that request has been denied by--in a bicameral, 
bipartisan way, because there were never enough details 
provided as to how this was going to affect our State and local 
partners. We are still waiting and have been waiting to hear 
what FEMA proposed with respect to consolidating these very 
important grant programs.
    I am curious whether or not you have seen the language, 
whether or not the administration is planning on submitting 
this consolidated grant program once again?
    I have one other quick question for you.
    Secretary Johnson. I will have to get back to you on that 
one. Sorry.
    Mrs. Brooks. Okay, I would just let you know that it has 
been met with much opposition by both sides, both chambers, and 
would expect it to receive the same response if it is presented 
in the same way.
    We also, in sharing the Emergency Preparedness Response 
Communication Subcommittee, we just held a hearing recently on 
the bio-terror threat facing the country. You may or may not be 
aware, but the Weapons of Mass Destruction Center issued a 
report card that showed that we, in this country, received 
grades of a large number of Ds and Fs in our preparation for a 
bio-terror threat.
    Wasn't--would like to know--one of the recommendations out 
of the 112th Congress was that the Next Generation-3 system 
that was proposed for detecting bio-terrorism exceeded cost by 
almost three times, to $5.8 billion in the life cycle for the--
what is called Gen3 of the Bio-Watch program.
    Did not know if you have been yet briefed on the Bio-Watch 
program, the analysis of alternatives, and whether or not you 
were aware that our country really is lacking in its 
preparedness and its response for a bio-terror attack.
    Secretary Johnson. Bio-terror--the bio-terror threat is 
part of the Homeland Security mission. It is--on my watch I 
have been briefed generally on the bio-terror concerns that we 
all have, and agree that this has got to be a real priority in 
a cost-effective way. I am happy to work with you, further the 
dialogue on this and make sure we address this in a cost-
efficient, effective way.
    Mrs. Brooks. I just might make a suggestion that came out 
during this hearing, that there is currently no one singular 
person that has his or her mission in Department of Homeland 
Security to be responsible for bio-terror. I would encourage 
you to look at that. It is--there have been those positions in 
past administrations. There currently is not that in this 
administration.
    Thank you.
    Chairman McCaul. Gentlelady's time has expired.
    Mr. Richmond, from Louisiana.
    Mr. Richmond. Thank you, Mr. Secretary.
    We are in a process of fixing these massive flood insurance 
premium increases around the country and we are getting some 
push-back from FEMA in terms of what they can and can't do and 
I just wanted to get you--to ask you to commit to ensuring that 
FEMA implement all aspects of the legislation as soon as 
possible, as soon as it is signed into law by the President, 
passed by both chambers.
    So can you commit to doing that?
    Secretary Johnson. Yes sir.
    Mr. Richmond. Second, I would move to TSA's use of small 
businesses. Usually it is difficult because small businesses 
didn't have the money and expertise to invest in the specific 
technologies, but they are there, and TSA has failed to use 
them. In fact, they just awarded a $68 million contract to a 
company just as a small business is about to be certified and 
able to do that.
    So can you commit to us to ensuring that you put pressure 
on TSA to use small businesses?
    Secretary Johnson. I would encourage all of my components 
to look at the most effective and efficient way to contract out 
services.
    My general view is that big is not necessarily better. I 
would rather have somebody who is more effective, was cost-
efficient, is, you know, a little hungry and is looking to 
fulfill my mission in a cost-effective, efficient way.
    Big is not necessarily better.
    Mr. Richmond. I would just ask you to look in that specific 
instance of the business that is nearing certification. The 
fact that I think we may have contracted out all of the 
opportunity for them without taking into account the fact that 
they could be included.
    The other thing I would follow up with or conclude with is 
Coast Guard reauthorization and the fact that I will publicly 
state on the record that, in the aftermath of both Katrina and 
Rita, watching the Coast Guard and what they do and how they 
did it, they are certainly a key component to homeland 
security. I would just urge that we stake our claim to 
jurisdiction and make sure that, that legislation--
reauthorization would come before us and have your commitment 
to support us on that.
    Secretary Johnson. I am very focused on Coast Guard re-
capitalization at the moment. I am told that the Coast Guard is 
the most aged fleet of vessels in the world--I don't know 
whether that is true or not, but that is what I am told--and I 
think it is time for re-capitalization.
    It is something I am focused on. I appreciate the support 
we have been given from Congress thus far.
    Mr. Richmond. Thank you, and I will yield back the 
balance----
    Chairman McCaul. On that note, let me just say we--I intend 
to offer a Coast Guard reauthorization bill.
    With that, last but not least, the gentleman from 
Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. Thank you, Secretary 
Johnson for being here today.
    Mr. Secretary, I want to highlight an issue that is 
intimately related to FEMA, Hurricane Katrina, Hurricane Sandy, 
and other storms that may have flown under your radar so far 
since your confirmation.
    I am talking about flood insurance, this rising cost and 
the multiple shortcomings of FEMA to get their flood mapping or 
premium rate setting right. There are countless instances where 
FEMA has used inaccurate or outdated data concerning land 
elevation and landscape features, and in some cases data that 
is decades old.
    Much of this is detailed in the 2008 GAO report.
    The House has been working on H.R. 3370, the Homeowner 
Flood Insurance Affordability Act. This bill will provide 
relief to homeowners who went to great efforts and expense and 
followed all the rules to build back after storms such as 
Hurricane Katrina and Sandy.
    This bill will prevent FEMA from changing the rules and 
punishing those people when FEMA updates their flood maps. I 
urge my colleagues to support H.R. 3370 when it hits the floor, 
hopefully next week.
    Now, while H.R. 3370 will go a long way to providing 
relief, we still need to ensure that FEMA is using good science 
and rating methods.
    So Mr. Secretary, I know you are relatively new to your 
post, but this is a critical priority that needs to be 
addressed. Because FEMA and the NIFP fall under your purview as 
the head of DHS, I am curious, have you been made aware of the 
flawed and outdated formula FEMA has been using for premium 
rate setting? Are you aware of the way FEMA's faulty mapping 
practices and data are directing affecting the severity of rate 
increases for homeowners?
    Secretary Johnson. Well, first of all, I think the overall 
goal for us in the Executive and Congressional branches is that 
we maintain going forward a solvent flood insurance program for 
the American people. That is the overarching priority.
    I am aware of discussions, disagreements concerning maps. I 
was in one as recently as 2 days ago with a certain Governor 
who had raised concerns about the maps. I do know that when we 
adopt maps there is an opportunity for public community comment 
on the maps, and an appeal process so that local communities 
can raise concerns with the technique that we have used, that, 
that process is built into the law and I would encourage local 
communities that have concerns to raise those in the process.
    Mr. Palazzo. Well, Mr. Secretary, I appreciate that, and 
you know, the bill that is going forward in the House right 
now, it is a Nation-wide bipartisan issue. It is affecting 
homeowners. It is affecting communities. It is deteriorating 
property values. Just in my district alone, we are already 
seeing foreclosures because rates have gone from $1,000 to 
$11,000.
    We could get into the unintended consequences of bigger 
waters, but this bill that we are gonna be introducing is paid 
for, it helps lead NFIP to become solvent, but it does it in a 
compassionate manner by not punishing those who have already 
played by the rules that FEMA and the local governments have 
set.
    So, I look forward to working with you on that.
    I yield back.
    Chairman McCaul. Mr. Secretary, let me just say, thank you 
for your generosity with time.
    I look forward to working with you on our priorities that I 
know we share together.
    Members may have additional questions in writing. We ask 
that you respond to those.
    Without objection, the committee now stands adjourned.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Question From Chairman Michael T. McCaul for Honorable Jeh C. Johnson
    Question. The Congressional EMP Commission and numerous other 
experts have expressed concern about the vulnerability of the Nation's 
critical infrastructure to damage from a catastrophic EMP event as a 
result of a high-altitude EMP attack against the United States or a 
solar geomagnetic storm. These studies also warn that the Nation's 
current lack of EMP preparedness should be a top priority for National 
and homeland security. Please describe DHS activities related to the 
EMP threat and its potential impacts and consequences to the Nation's 
critical infrastructures.
    Answer. The Department of Homeland Security (DHS) is working 
collaboratively, both internally and with external stakeholders, to 
reduce the risk from Electromagnetic Pulse and solar weather. Within 
the National Protection and Programs Directorate (NPPD), the Office of 
Cyber and Infrastructure Analysis\1\--and the Office of Cybersecurity 
and Communications have worked to model and assess Electromagnetic 
Pulse effects, and to conduct research and propose solutions to 
understand and mitigate Electromagnetic Pulse risks. For example, NPPD 
conducted a study in 2010 on Electromagnetic Pulse's potential impact 
on extra-high voltage transformers and recommended options for 
hardening these systems from Electromagnetic Pulse attacks.
---------------------------------------------------------------------------
    \1\ In February 2014, NPPD created the Office of Cyber and 
Infrastructure Analysis by integrating analytic resources from across 
NPPD including the Homeland Infrastructure Threat and Risk Analysis 
Center and the National Infrastructure Simulation and Analysis Center 
which were formerly located within the NPPD Office of Infrastructure 
Protection.
---------------------------------------------------------------------------
    Further, the Science and Technology Directorate's (S&T) Recovery 
Transformer (RecX) project is intended to increase the resilience of 
the power grid. A pilot demonstration was successfully conducted in 
March 2012 in which an extra-high voltage transformer prototype was 
transported, installed, and energized in less than 1 week. DHS S&T and 
RecX project partners are working on transition plans for RecX with 
various stakeholders, including Federal partners and private industry. 
Additionally, the Resilient Electric Grid program under DHS S&T 
increases the resilience of the grid, particularly in urban areas, by 
enabling substations to interconnect with one another in order to share 
power and assets in the event of an emergency, via an inherently fault-
current-limiting high-temperature super-conducting cable. The Resilient 
Electric Grid program will demonstrate this new capability in a pilot 
installation with our partner utility, Consolidated Edison, later this 
year. S&T has also developed modeling and simulation capabilities that 
are capable of analyzing the impact of blasts, Electromagnetic Pulses, 
and other hazards on critical infrastructure. S&T has a fiscal year 
2014 new start program, Solar Storm Mitigation, that will provide the 
capability to forecast geomagnetically-induced currents levels at 
specific nodes within the grid. This capability would allow the utility 
to take proactive operational measures to protect a given transformer 
from damage due to the impacts of a solar storm.
    Other DHS components also have roles in building resilience. The 
Federal Emergency Management Agency (FEMA) has exercised scenarios 
involving Electromagnetic Pulse and solar weather and is developing 
plans to help address these evolving threats. FEMA is also working with 
States and industry to reduce the risk from Electromagnetic Pulse, 
notably by deploying new capabilities as part of the integrated public 
alert and warning system to help keep the public informed and alerted 
during a major Electromagnetic Pulse event. Additionally, DHS 
coordinates Unclassified and Classified briefings and workshops for 
industry and works to analyze their vulnerabilities and demonstrate 
potential impacts and costs if those vulnerabilities are left 
unaddressed.
  Questions From Honorable Patrick Meehan for Honorable Jeh C. Johnson
    Question 1. We are concerned about the EAGLE II procurement and the 
Department's corrective action to re-evaluate bids. As you know, 
Members of this committee, have been watching how the Department has 
handled--really mishandled, this massive contract procurement. What we 
have witnessed has not given us comfort in the Department's 
administrative capabilities. The procurement took almost 3 years 
between the time proposals were submitted and contract awards were 
finally completed last fall. Since that time, the Department has been 
besieged by protests--I believe there are over 40 protests pending. 
Clearly, there are many groups that feel this procurement was flawed. 
At the end of December, we were informed that the Department was taking 
corrective action to re-evaluate bids, but have not had received an 
update since. Could you comment on the status of the Department's 
correction action and a time line for when this process will be 
concluded?
    Answer. The Enterprise Acquisition Gateway for Leading Edge 
Solutions II procurement consisted of 9 distinct competitions across 3 
functional requirements categories. The Department of Homeland Security 
began awarding contracts 21 months after proposals were received and 
completed contract awards within 31 months.
    Contract awards have been made in all nine Enterprise Acquisition 
Gateway for Leading Edge Solutions II award tracks in an open and 
transparent process employing Federal procurement best practices and in 
accordance with the Federal Acquisition Regulation. Out of the 9 
competitions, 6 are available for immediate use, while 3 are in the 
final stages of the procurement process. To date, awards have been made 
to large and small companies--task order awards have been made to 
companies in all three functional categories.
    The Department of Homeland Security recognizes that protests are 
part of the procurement process in accordance with the Federal 
Acquisition Regulation. For Enterprise Acquisition Gateway for Leading 
Edge Solutions II, a significant number of protests have been received, 
many of which have been dismissed or withdrawn. However, protests add 
significant time to the overall procurement cycle.
    In addition to agency level and Government Accountability Office 
protests, interested parties may also protest the acquisition through 
the United States Court of Federal Claims.
    Based upon the significant number of offerors protesting the award 
decisions, the Department of Homeland Security decided that re-
evaluation of proposals in some functional categories and tracks is the 
most effective and efficient way of addressing the concerns raised, 
while ensuring fairness in this competitive process. This will allow 
the most expeditious path to completion. The Department has completed 
all re-evaluations.
    Question 2. I remain concerned about the impact delays will have on 
the Department's ability to provide mission-critical services to secure 
our Nation's borders. Given the problems with the Eagle II procurement, 
is the Department providing the flexibility (exceptions or waivers) to 
component agencies that generally use this vehicle, so they have the 
ability to move their work elsewhere to ensure they are able to provide 
mission-critical services?
    Answer. As of March 26, 2014, four of the awarded Enterprise 
Acquisition Gateway Leading Edge Solutions II tracks are fully 
available for use. Department of Homeland Security contracting offices 
have the flexibility to satisfy current mission requirements through an 
``exception'' to the use of Enterprise Acquisition Gateway for Leading 
Edge Solutions II without the Office of the Chief Procurement Officer's 
approval. In addition to 6 specified exceptions, contracting officers 
may request a waiver from the Office of the Chief Procurement Officer 
to purchase goods or services from an alternative contract source. The 
Office of the Chief Procurement Officer has received a total of 25 
waiver requests and all but one of these requests was approved.
    Questions From Honorable Tom Marino for Honorable Jeh C. Johnson
    Question 1. Immigration and Customs Enforcement, known as ICE, and 
the National Intellectual Property Rights Coordination Center, known as 
the IPR Center, both play vital roles in the battle against theft of 
our Nation's intellectual property. In your new capacity, I strongly 
encourage you to ensure adequate resources within the Department are 
provided to assist in their missions to protect our citizens from 
dangerous products, and to guard against the criminals and terrorists 
who traffic in illicit, illegal, and counterfeit goods. Research has 
shown that IP theft is truly a matter of National security--such as 
counterfeit memory chips found in our military aircrafts in 2010. In 
your new role, can we count on you to provide the various agencies 
within the Department with the funding and resources they need to 
effectively fight IP theft?
    Question 2. Further, do you have any ideas on how we can better 
strengthen these programs to protect against future threats?
    Answer. Yes, I will continue to work with Congress to ensure the 
Department of Homeland Security (DHS) continues to provide the funding 
and resources necessary to ensure that it remains the leading U.S. 
Government agency for combating intellectual property crimes. Enforcing 
intellectual property laws remains a priority for both DHS's U.S. 
Immigration and Customs Enforcement (ICE) and U.S. Customs and Border 
Protection (CBP). The ICE-led National Intellectual Property Rights 
Coordination Center (IPR Center) is a collaborative effort supported by 
17 U.S. Government agencies, Interpol, Europol, and the governments of 
Canada and Mexico to enhance enforcement of intellectual property and 
trade fraud violations that threaten the U.S. economy, endanger public 
health and safety, and threaten America's military personnel. The IPR 
Center integrates law enforcement efforts with private industry 
information in the exchange of tactical intelligence and joint 
operations.
    ICE, CBP, the IPR Center, and partner agencies have developed 
initiatives to address some of the most pressing threats from 
intellectual property infringement. Operation Chain Reaction combats 
counterfeit and substandard parts within the U.S. Department of Defense 
and U.S. Government supply chains. Operation Engine Newity targets the 
importation and distribution of counterfeit and substandard automotive 
products that pose a health and safety risk. Pursuant to this 
operation, investigations conducted by ICE Homeland Security 
Investigations (HSI) and the Federal Bureau of Investigation, as well 
as interdictions made by CBP, have uncovered counterfeit airbags, 
steering, braking, and seat belt components. Operation Apothecary 
addresses, analyzes, and attacks potential vulnerabilities in the 
customs entry process that allow for the smuggling of commercial 
quantities of counterfeit, unapproved, and/or adulterated drugs. 
Operation In Our Sites identifies, targets, and seizes internet domain 
names that defraud U.S. consumers and businesses by trafficking 
infringing goods, pursuing assets, and criminally prosecuting 
principals. Recognizing the importance of protecting our own supply 
chain from counterfeit goods, ICE has developed counterfeit awareness, 
mitigation, identification, and reporting training for ICE purchase 
card holders and approvers via ICE acquisition office-hosted webinars. 
Additionally, the IPR Center coordinates National and international 
operations that focus on the security of the supply chain and protect 
the U.S. economy and American jobs. Congressional support, such as 
appropriation for these initiatives and assistance in raising 
constituent awareness about the dangers of counterfeit products can 
assist DHS in effectively fighting intellectual property theft.
   Questions From Honorable Mark Sanford for Honorable Jeh C. Johnson
    Question 1a. Is individual privacy a priority for the Department of 
Homeland Security?
    Answer. Protecting privacy is critical within the DHS mission. The 
Homeland Security Act of 2002 established the Privacy Office within 
DHS. The Homeland Security Act established the DHS chief privacy 
officer as the first statutorily-created privacy officer in the Federal 
Government. The chief privacy officer reports directly to the Secretary 
and is charged with ``assuring that the use of technologies sustains, 
and do not erode, privacy protections relating to the use, collection 
and disclosure of personal information.'' Pursuant to this mandate, the 
Privacy Office works to ensure that the protection of privacy rights is 
incorporated into the Department's programs, policies, and procedures.
    The Privacy Office's division into four major functional areas--
Compliance, Policy, Oversight, and Disclosure--has positioned it to 
ensure involvement with programs, offices, and initiatives across the 
Department at each stage of the development life cycle--from planning 
and design, through implementation and, possibly, retirement. The 
Privacy Office calls this process ``operationalizing'' privacy.
    The foundation of this process begins with privacy compliance. The 
Privacy Office's Compliance team manages this by ensuring that the 
agency has published in the Federal Register a System of Records Notice 
for all Privacy Act systems of records. In addition, the Compliance 
team ensures that all personally identifiable information contained in 
these Privacy Act Systems of Records as well as within any electronic 
record systems is handled in full compliance with fair information 
practice principles, as set forth in the Privacy Act of 1974 and E-
Government Act. The Compliance team also works closely with Component 
Privacy Officers, who are embedded in programs and offices across the 
Department. This collaboration has facilitated the Privacy Office's 
understanding and reach into projects at the earliest stages of program 
and system planning, including those related to transporta-
tion-, border-, and cybersecurity. These efforts are reflected in the 
hundreds of Privacy Impact Assessments published on the DHS Privacy 
Office public-facing website: www.dhs.gov/privacy. These Privacy Impact 
Assessments support transparency, and give the public a detailed look 
into DHS efforts to secure the border, protect the transportation 
system, ensure that critical infrastructure is protected from cyber 
threats, and the whole range of DHS missions that may include 
collecting personal information. These Privacy Impact Assessments also 
analyze potential privacy risks and detail the steps the Department 
takes to mitigate those risks.
    The Privacy Policy team assesses novel privacy challenges that are 
raised during the privacy compliance process, either through the use of 
new technologies or methods of fulfilling our Department's vast mission 
set. Examples include the Policy team's engagement on the Department's 
information sharing in support of ``big data'' counterterrorism 
programs, and its support for DHS's international activities, which 
must account for other countries' differing requirements and 
expectation about privacy.
    The Oversight team in the Privacy Office ensures that programs are 
effectively mitigating potential privacy risks discussed in compliance 
documentation--like Privacy Impact Assessments--and helps to identify 
and mitigate new risks that are discovered over time. Their pioneering 
use of Privacy Compliance Reviews has become an important tool for 
fine-tuning privacy protections in the Department's operational 
programs. The Oversight team is already designing a Privacy Compliance 
Review for many of DHS's cybersecurity activities.
    Finally, the Privacy Office's Disclosure team is responsible for 
providing individuals and the public with appropriate access to and 
transparency for DHS records, following a request for access either 
under the Privacy Act or the Freedom of Information Act. The Disclosure 
team pursues proactive, timely disclosure of information about DHS 
programs, operations, systems, and policies in a manner that is easily 
accessible to the public. Additionally, the Disclosure team provides 
policy and compliance leadership for Freedom of Information Act 
Officers across the Department.
    Question 1b. What specific steps will you take to ensure the civil 
liberties of American citizens as they interact with DHS at our 
airports, along our borders, or at their home computers?
    Answer. Given the volume of daily interactions DHS has with the 
public it is critical for us to diligently protect the civil rights and 
civil liberties of all persons. The Homeland Security Act established 
the Office for Civil Rights and Civil Liberties (CRCL) in section 705.
    The Office for Civil Rights and Civil Liberties provides policy 
advice and internal oversight to ensure that civil rights and civil 
liberties are respected and not diminished. Many DHS components also 
have offices dedicated to civil rights and/or civil liberties policy 
and oversight. A major focus of CRCL's work is the initiation of 
investigations based on complaints received from the general public and 
non-Governmental organizations through U.S. mail, email, and fax, and 
the CRCL telephone hotline, as well as through the DHS Traveler Redress 
Inquiry Program. Incidents that merit investigation are also forwarded 
to CRCL from other offices at DHS and other Government agencies. 
Whether through recommendations arising from investigations, or its 
role in providing proactive advice to the Secretary and component 
leadership, CRCL is engaged in policy development throughout the 
Department.
    CRCL supports the Transportation Security Administration (TSA) as 
it provides the highest level of security to all who pass screening 
checkpoints in a manner that also respects individual rights. For 
example, CRCL has worked with TSA on revised anti-profiling training 
for TSA's behavioral detection officers. Similarly, CRCL works with 
U.S. Customs and Border Protection on civil rights and civil liberties 
issues that can arise in border screening.
    CRCL has also developed and implemented training for law 
enforcement officers and other DHS personnel who interact with 
travelers at the border to ensure that the civil rights and civil 
liberties of travelers are appropriately protected during the process 
of border screening.
    In 2009, President Obama recognized the need to increase education 
and dialogue about cybersecurity. The President directed a Cyberspace 
Policy Review, which resulted in recommendations that have become the 
blueprint from which our Nation's cybersecurity foundation will grow to 
support an assured and resilient digital infrastructure. CRCL has been 
an integral part of the implementation of the recommendations stemming 
from that review, advising DHS cybersecurity professionals, managers, 
and leaders on how to protect individual rights while improving the 
Nation's cybersecurity posture across a range of cybersecurity 
initiatives conducted by the Department.
    DHS efforts have focused on securing the Federal Government's 
networks--the ``.gov'' domain--while providing assistance to help 
secure critical infrastructure and the Nation's private cyber 
infrastructure using means other than Government monitoring of internet 
communications. The Department provides threat information, technical 
assistance, and coordination of National-level preparedness and 
response efforts for critical infrastructure owners and operators, 
State, local, and Tribal governments, foreign partners, and the general 
public, to assist them as they work with us to improve cybersecurity.
    CRCL and the DHS Privacy Office also took an active role in 
implementing Executive Order 13636, which focuses Federal cybersecurity 
efforts securing the Nation's critical infrastructure. The Executive 
Order directed the annual completion of Privacy and Civil Liberties 
Assessments of activities conducted under the Executive Order, and the 
compilation of assessment reports from other Departments and agencies 
involved implementation activities. Working in close partnership with 
the DHS Privacy Office, CRCL completed assessments of Executive Order-
related cybersecurity activities conducted by DHS, to ensure those 
activities appropriately address any privacy and civil liberties issues 
associated with those activities.
    At the same time, CRCL and the DHS Privacy Office worked to ensure 
the interagency task force operated in a transparent manner, co-hosting 
meetings with advocacy groups and others focused on cybersecurity, 
privacy, and civil liberties issues. Concurrently, CRCL and the Privacy 
Office co-chaired the Privacy and Civil Liberties Assessments working 
group, 1 of 9 working groups established by the DHS-led Interagency 
Task Force charged with carrying out the directives of the Executive 
Order, and Presidential Policy Directive (PPD) 21, which advances a 
National unity of effort to strengthen and maintain secure, 
functioning, and resilient critical infrastructure. Together, CRCL and 
the Privacy Office shared best practices with privacy and civil 
liberties office colleagues from the participating Departments and 
agencies, and worked through the Assessments Working Group to manage 
the assessment reporting process.
    Question 2. The Transportation Subcommittee heard testimony on 
November 14, 2013 from Administrator Pistole and others on TSA's 
Behavior Detection & Analysis Program (BDA) and its Behavior Detection 
Officers. Do you support the continuation of this program in light of 
GAO's report that there is no proof that it works after nearly $1 
billion has been spent on it in the last 5 years without identifying a 
single terrorist?
    Answer. Behavior detection techniques have been an accepted 
practice for many years within law enforcement, customs and border 
enforcement, Department of Defense, and security communities, both in 
the United States and internationally. The Transportation Security 
Administration's (TSA) Screening of Passengers by Observation 
Techniques (SPOT) behavior detection program is an important element of 
the TSA multi-layered security approach. TSA's Behavior Detection 
Officers (BDO) also play a key role in carrying out TSA's risk-based 
screening (RBS) initiatives. RBS initiatives are intended to provide a 
more common-sense, less-invasive screening experience for low-risk 
passengers.
    Because TSA's overall security posture is composed of interrelated 
parts, to disrupt one piece of the multi-layered approach will have a 
far-reaching adverse impact on other pieces, thereby negatively 
affecting TSA's overall mission performance.
    Additionally, in April 2011, the Department of Homeland Security 
Science and Technology Directorate completed a comprehensive study that 
examined the validity of using behavior indicators. The study found 
that the SPOT program provided a number of screening benefits and is 
more effective than random selection at identifying high-risk 
passengers.
    Since the publication of the 2011 Study, TSA has taken steps to 
improve the entirety of the behavior detection program and the process 
by which it is validated. In early 2012, TSA began another round of 
research aimed at further substantiating the behavioral indicators and 
improving the detection protocols. This effort evolved into what is now 
known as the Behavior Detection Optimization effort. Optimization 
encompasses four pillars of behavior detection: (1) Improving 
recruiting processes, (2) Enhancing training content to further enhance 
BDO skill sets, (3) Instituting greater management and quality control 
systems, and (4) Revising its Behavioral Indicator Reference Guide 
(BIRG) and designing a new referral methodology.
    Concurrently and integral to the Optimization project is a 
comprehensive Operational Test designed to collect the data to validate 
behavior detection over and above what was seen during the original 
2011 SPOT Validation Study. Scenario-driven testing will be used in 
addition to the outcome-based protocols used in the prior Study. Each 
of the GAO limitations discussed in their report will be mitigated to 
the maximum extent possible given the constraints of testing within an 
operational environment. Initial testing will begin in Fall 2014, and 
full data collection is planned for late Winter 2015.
    Question 3. The Transportation Subcommittee also heard testimony on 
January 28, 2014, from Mr. Roderick Allison, assistant administrator 
for TSA's Office of Inspection on a GAO report regarding whether or not 
TSA's criminal investigators in the Office of Inspection met the 
criteria for Law Enforcement Availability Pay (LEAP). Have you reviewed 
this issue and are you in favor of changes to the status of these 
criminal investigators?
    Answer. The Transportation Security Administration (TSA) is 
authorized under the Aviation and Transportation Security Act, Pub. L. 
107-71 (ATSA), to establish and classify positions and compensate its 
workforce. TSA's criminal investigators receive Law Enforcement 
Availability Pay (LEAP) for unscheduled overtime pursuant to TSA 
policy, TSA Management Directive (MD) 1100.55-8, Premium Pay, and 
MD1100.88-1, Law Enforcement Position Standards and Hiring 
Requirements. TSA policy provides that for the purposes of law 
enforcement premium pay administration, the agency follows the 
provisions of 5 U.S.C.  5545a, and 5 C.F.R.  550.181 through  
550.186.
    TSA's 1811 criminal investigators conduct criminal investigations 
of TSA employees and contractors, integrity testing, and external 
investigations. In accordance with both TSA policy and the referenced 
statute and regulatory provisions, TSA's 1811 criminal investigators 
must work, or be available to work, a minimum annual average of 2 hours 
of unscheduled overtime per non-excludable regular workday.
    Pursuant to the Department of Homeland Security, Inspector General 
recommendation (from its September 2013 report entitled Transportation 
Security Administration Office of Inspection's Efforts to Enhance 
Transportation Security, not from a GAO report), TSA has an on-going 
effort to determine the appropriate number of criminal investigators 
within TSA. Following the completion of the review, TSA will determine 
the scope of any changes that should be made to staffing allocations 
and position classification within the Office of Inspection (OOI).
   Questions From Honorable William R. Keating for Honorable Jeh C. 
                                Johnson
    Question 1a. Mr. Secretary, I have a question on a topic that I 
have been involved with since my days as a district attorney outside of 
Boston, Massachusetts, when a 16-year old named Delvonte Tisdale 
perished after he breached airport security and stowed away on a plane 
from Charlotte-Douglas to Boston Logan Airport. Since joining this 
committee in 2011, I have sat through several hearings on perimeter 
security and have heard numerous testimonies on the discouraging 2009 
Government Accountability Office (GAO) report of Transportation 
Security Administration's (TSA) assessments. Following GAO 
recommendations, TSA published an assessment in July 2010--the 
Transportation Sector Security Risk Assessment (TSSRA)--that included 
various risk-based scenarios related to airport perimeter security but 
did not consider potential vulnerabilities of airports to an insider 
attack.
    It is now 2014 and I remain unconvinced that TSA is capable of 
adequately securing ports of entry, and, earlier this month, I sent a 
letter to GAO Comptroller General Gene Dodaro requesting that GAO 
conduct a comprehensive review of the efficacy of the Transportation 
Security Administration's perimeter security assessments.
    Can you elaborate on the Department's vision for ensuring perimeter 
security moving forward?
    Answer. Commercial airports in the United States are required to 
establish and carry out measures for controlling entry, and to provide 
for detection of and response to unauthorized presence or movement in 
the controlled area. These plans are approved by the Transportation 
Security Administration (TSA),
    Airport authorities, in partnership with State, and local law 
enforcement (including airport police and public safety departments), 
and overseen by TSA, enacts a layered and multi-faceted approach to 
increase perimeter security through regulation and inspection 
activities.
  <bullet> First, TSA establishes regulatory requirements, such as 
        Airport Security Programs (ASP) that must be adopted by 
        regulated commercial airports, and inspects to those standards. 
        TSA issues ASP changes and Security Directives to counter 
        emerging threats or tactics that threaten airport perimeter 
        security. TSA's Transportation Security Inspectors (TSI), 
        perform inspections at regulated commercial airports. Perimeter 
        security, including pedestrian access points, vehicle gates, 
        and building access points, are a focus area of these 
        inspections.
  <bullet> Second, TSA maintains regular communication and partnering 
        efforts with airport associations, including the American 
        Association of Airport Executives (AAAE) and the Airports 
        Council International--North America (ACI-NA), to promote 
        increased vigilance and security.
  <bullet> Third, TSA conducts numerous outreach efforts at the local 
        level directly, including TSI Perimeter Security Outreaches and 
        Joint Vulnerability Assessments (JVAs) and partnered with 
        Federal, State, and local law enforcement to identify security 
        weaknesses at airports including the perimeters.

    Together, these efforts demonstrate TSA's vision of continuously 
improving airport perimeter security through risk-based efforts and 
partnership with affected stakeholders.
    Question 1b. How effective has TSA's implementation of GAO's 
recommendations been?
    Answer. In response to GAO 09-399, Transportation Security 
Administration (TSA) conducted a series of Special Emphasis Assessments 
(SEA) of airport perimeter security at all Category X through Category 
III airports in 2012. Local Transportation Security Inspectors (TSIs) 
gathered physical security data from the 284 affected airports. The 
data gathered from this SEA drove TSA's additional outreach efforts. 
Based on the identification of best practices and potential weaknesses, 
in 2013, TSIs worked with commercial airports to help them continue to 
identify areas for improvement and take action to increase perimeter 
security. All GAO questions related to regulatory compliance have been 
closed.
    Using the results of the perimeter assessments, outreach, and 
additional assessments, in 2013, TSA completed a Perimeter Security 
Risk Assessment which identified best practices and potential sources 
of risk in perimeter security. TSA posted the results to its web board, 
to which airport operators have access, and provided these results to 
GAO. TSA provided in-depth results to its Federal Security Directors in 
the field to discuss with their respective airports, allowing each 
airport operator to understand the airport's current state and where to 
address mitigation efforts. Airport operators responded favorably to 
TSA's assessment, outreach, and information-sharing efforts.
    Question 1c. How do you plan on reallocating resources to ensure 
that necessary recommendations are enforced and our perimeters are 
adequately secured?
    Answer. The Transportation Security Administration (TSA) has 
appropriate staffing and resources to accomplish its compliance 
mission. Over and above its continuous regulatory compliance 
inspections of perimeter security, in fiscal year 2014, TSA implemented 
targeted testing of security measures as a component of TSA's 
Compliance Security Enhancement Through Testing (COMSETT) protocols. 
TSA is using COMSETT to direct its limited Transportation Security 
Inspector force toward targeted critical aviation security tests in 
order to buy down risk. TSA will continue to use COMSETT in fiscal year 
2015 and future years to identify the vulnerabilities that persist in 
perimeter security and will work with those particular airports to 
improve their access control security.
    Question 2a. I believe there is no greater depiction of the state 
of current information sharing between intelligence agencies and our 
international partners than the events surrounding the Boston Marathon 
bombings last April. The Boston Police Commissioner, Ed Davis, sat 
before this committee last year to explain that information was held 
from him by the FBI that could have potentially served as a force 
multiplier in the search for the suspects following the attacks in 
Boston. Further, this committee ran into additional hurdles when we 
asked the FBI to testify before us both in public and secure settings. 
Instead of complying and walking us through what happened on that 
fateful day, the FBI citied bureaucratic, jurisdictional guidelines to 
explain why they did not need to share information with our committee 
(despite the fact that they have testified before the Homeland Security 
Committee in the past).
    In response to further inquiries to both DHS and the FBI, Chairman 
McCaul and I were able to find some discrepancies in communication 
between those two agencies, as well. In the lead up to the Boston 
bombings, Tamerlan Tsarnaev's questionable past and travels in and out 
of Dagestan, did cause enough alarm to even designate him for a second 
screening. FBI and DHS are supposed to work together when individuals 
are flagged in the databases.
    In this regard, Mr. Secretary, what can we do to make sure that 
there is not only adequate information sharing across the agencies, but 
also between Federal and local entities during a mass casualty event?
    Question 2b. What is the biggest hindrance to better coordination?
    Question 2c. Nearly 13 years after 9/11, I am still concerned that, 
despite the improvements, there are still serious gaps that need to be 
addressed.
    Answer. On a daily basis, DHS and the Federal Bureau of 
Investigation, along with other Federal agencies at all levels, 
coordinate and share information and intelligence regarding real and 
potential threats to our Nation. We do this through a number of 
mechanisms in offices and areas all across the Nation. DHS also works 
closely with our State and local partners to share investigative 
information, intelligence, and other Homeland Security information. DHS 
components routinely work along-side State and local partners on 
investigations and law enforcement operations, sharing the information 
necessary to protect our communities. In addition, we have placed DHS 
personnel in State and major urban area fusion centers for the express 
purpose of sharing intelligence and information with those best-
postured in the States to share relevant information more broadly at 
the local level.
    DHS recently completed its internal After-Action Review. We found 
that in the wake of the bombings, a large information void existed. 
Since the Boston attack, DHS, the FBI, and National Counterterrorism 
Center (NCTC) have expanded our ability to share information with State 
and local officials about potential threats. Examples of recent events 
where information has been shared include the 9/11 anniversary and the 
homeland security implications of the conflict in Syria. DHS identified 
ways to more effectively work with interagency partners at FBI Joint 
Terrorism Task Forces and sent updated guidance to officers in the 
field to improve such collaboration. DHS also continues to work closely 
with Federal partners to screen and vet domestic and international 
travelers, visa applicants, and other persons of interest to identify 
potential threats. After the Boston attack, DHS reviewed its name-
matching capabilities, leading to improvements in its ability to detect 
variations of names derived from a wide range of languages.
    In recent weeks DHS also completed an interagency review along with 
Department of Justice and Central Intelligence Agency of information 
handling and sharing prior to the bombing. This report, along with the 
DHS After-Action Report, are driving procedural and operational changes 
to the way DHS coordinates and collaborates with other Federal 
agencies, and how we share information with our State and local 
partners.
    DHS is committed to continuing to share the most germane and 
meaningful data in its possession with other Federal agencies, and with 
our State and local trusted partners. Following the attack in Boston, 
DHS upgraded its name-matching capabilities, and issued guidance to its 
officers at the JTTFs to formalize communication practices to ensure 
practices regarding travel alerts are documented. DHS is also committed 
to continuing its work with the FBI to ensure effective information 
sharing. Boston is a reminder that we must continually strive to work 
together across Federal agencies to identify and share threat 
information with each other and among our State and local partners who 
ultimately will bear the brunt of any successful terrorist attack.
    Question 3a. In the aftermath of the bombings, emergency response 
was key. I have spoken to several first responders, medical personnel, 
and law enforcement officials who said that the fact that so few people 
perished in Boston on April 16 was simply a miracle.
    Are there efforts underway to make sure that all emergency 
responders carry a tourniquet as well as quick clot gauze to control 
traumatic bleeding?
    Question 3b. Are there such efforts under way?
    Answer. The Federal Emergency Management Agency (FEMA) in 
coordination with the DHS Office of Health Affairs (OHA) supports whole 
community preparedness for mass casualty incidents through a number of 
efforts, to include workshops and training, policy and doctrine, and 
grant programs.
Workshops
    In partnership with the National Counterterrorism Center and the 
Federal Bureau of Investigation, FEMA's Office of Counterterrorism and 
Security Preparedness developed the Joint Counterterrorism Awareness 
Workshops in 2011. The Joint Counterterrorism Awareness Workshops 
(JCTAWS) bring together law enforcement, fire service, emergency 
medical services and the private-sector stakeholders to conduct 
scenario-based reviews of local prevention and response plans and 
capabilities. The workshop is based on a scenario in which multiple, 
coordinated assaults occur over a 24-hour period, similar to the 
November 2008 terrorist attacks in Mumbai, India. Since its inception 
in 2011, 15 JCTAWS sessions have been delivered with over 2,500 
participants.
    The workshops are designed to bring together law enforcement, fire, 
emergency medical services, and the private-sector stakeholders that 
would respond to complex terror event. Response protocols range broadly 
throughout the United States. Workshops have included representation 
from the following disciplines/fields: Local, State, and Federal law 
enforcement; State and local fusion centers; local and regional fire 
and emergency medical services responders; hotel/convention security; 
large sporting/commercial venues; private/public university; 
telecommunications; private/public infrastructure; and airport 
administrators/security.
    Workshops have been conducted in the following locations:
  <bullet> Monterey, CA--November 2010--Kickoff conference at Naval 
        Post Graduate School
  <bullet> Philadelphia, PA--January 31, 2011
  <bullet> Boston, MA--March 10, 2011
  <bullet> Sacramento, CA--May 10, 2011
  <bullet> Indianapolis, IN--June 28, 2011
  <bullet> Honolulu, HI--September 29, 2011
  <bullet> Houston, TX--November 16, 2011
  <bullet> Bethpage, NY--January 2012--Kickoff conference
  <bullet> Nashville, TN--March 15, 2012
  <bullet> Denver, CO--June 12, 2012
  <bullet> Charlotte, NC--June 27, 2012 (Briefing of Lessons Learned) 
        (Democratic National Convention)
  <bullet> Tampa, FL--July 10, 2012 (Briefing of Lessons Learned) 
        (Republican National Convention)
  <bullet> Los Angeles, CA--July 31-August 1, 2012
  <bullet> Las Vegas, NV--October 9-10, 2012
  <bullet> Atlanta, GA--February 26-27, 2013
  <bullet> Seattle, WA--June 18-19, 2013
  <bullet> Minneapolis, MN--August 27-28, 2013
  <bullet> Washington, DC--December 3-4, 2013
  <bullet> Miami, FL--February 11-12, 2014
    Workshops currently scheduled for calendar year 2014 include 
Oklahoma City, OK on June 16-17, 2014 and Orlando, FL on September 9-
10, 2014.
    Beginning in 2012, the workshop added a second day to address 
medical issues (pre-hospital, hospital, post-care) associated with a 
complex attack, including Tactical Emergency Casualty Care. A set of 
best practice treatment guidelines for trauma care in a high-threat, 
pre-hospital environment, the Tactical Emergency Casualty Care 
guidelines are built upon medical lessons learned by United States and 
allied military forces, as well as civilian mass casualty experiences 
both in the United States and abroad. The lessons learned have been 
modified to address the specific needs of civilian populations and 
civilian out-of-hospital practice, and address the use of tourniquets 
by all levels of first responders as well as the appropriate hemostatic 
agents. Tactical Emergency Casualty Care guidelines consider the 
requirements of a civilian population to include: Pediatric, geriatric, 
and special needs patients; underlying medical conditions common in a 
civilian population; characteristics and limitations of civilian 
providers; and the varied types of threats that responders face.
    The DHS Office of Health Affairs (OHA) held a stakeholder 
engagement meeting in February to facilitate a discussion between 
subject-matter experts in the first-responder community on improving 
survivability in improvised explosive device (IED) and active-shooter 
incidents. OHA partnered with the Department of Health and Human 
Services (HHS) Office of the Assistant Secretary of Preparedness and 
Response (ASPR), and the Department of Transportation National Highway 
Traffic Safety Administration (NHTSA) Office of Emergency Medical 
Services on the meeting.
    More than 250 representatives from across the country, from State, 
local, and Federal organizations in the fire, emergency medical 
services (EMS), law enforcement, emergency management, and other 
professions heard presentations from subject-matter experts and 
participated in panel and group discussions on hemorrhage control, 
personal protective equipment, and interoperability when responding to 
IED and active-shooter incidents. The group also reviewed response 
strategies from the U.S. military, focusing on the military's protocols 
for tourniquet use, discussed how to apply lessons learned in the 
civilian first-responder environment, and best practices from recent 
incidents in the United States. OHA brought the first responder groups 
together so that unique solutions that work for each community can be 
discussed and adopted at the State and local level. Some of the 
solutions developed included: Improving access to and training on 
hemorrhage control materials; increased education on PP&E equipment and 
how it can be most effectively used by all responders; improving 
working relationships, regular joint training and exercises, between 
fire, EMS, and law enforcement personnel at the local level; and 
targeting grants to facilitate interoperability.
Training
    In addition to the JCTAWS, FEMA's emergency responder training 
courses currently offered by the National Preparedness Directorate's 
Center for Domestic Preparedness (CDP) and the National Training and 
Education Division (NTED) provide instruction on the use of tourniquets 
and quick clot gauze to control traumatic bleeding.
    In its health care curriculum and specialized mass casualty 
response training, the CDP highlights and promotes best practices to 
include the use of tourniquets and quick clot gauze to control 
traumatic bleeding when practicable. CDP monitors National events and, 
when appropriate, incorporates best practices regarding response 
actions, techniques, tactics, and protocols into applicable training 
curriculum. Curriculum updates are made once the relevant National 
organization or governing authority promulgates acceptance of best 
practices through the creation of competency standards and training 
objectives.
    Selected NTED training partners include emerging trends in the use 
of tourniquets and quick clot gauze to control traumatic bleeding in 
their courses. Texas Engineering Extension Service's Medical 
Preparedness for Bombing Incidents course specifically addresses 
tourniquets and quick clot gauze to control traumatic bleeding; and the 
American College of Emergency Physicians' First Responder on the Scene 
Training and Texas State University's Active Threat Integration 
Response courses (both under development) include details on these 
emergency medical response techniques. All NTED training partners use 
either the Tactical Emergency Casualty Care standard or the Department 
of Defense equivalent United States Military's Tactical Combat Casualty 
Care standard.
Policy
    The DHS Office of Health Affairs (OHA) is leading a cross-
Departmental working group on the development of Federal guidance for 
first responders on the medical response to improvised explosive device 
(IED) and active-shooter incidents. The ultimate goal of the document 
is to improve survivability of victims from IED and/or active-shooter 
incidents. Based on best practices and lessons learned, the guidance 
document will provide evidence-based information on the medical 
response to both IEDs and active-shooter incidents, with 
recommendations for hemorrhage control and tourniquet use, personal 
protective equipment for first responders, and interoperability between 
law enforcement, EMS, and fire professionals responding to IED and 
active-shooter incidents. The guidance is still under development, but 
will be posted on-line and distributed to the first-responder 
community.
    The DHS OHA also participated with the Departments of Health and 
Human Services, Transportation, Justice, and Defense, and non-
Governmental organizations in the development and subsequent publishing 
of an evidence-based guideline to standardize hemorrhage control 
treatment. Previously, no consistent standard existed for local and 
State medical officials and responders.
Grant Programs
    For years, FEMA's preparedness grant programs have provided funding 
in support of a wide range or prevention, protection, response, 
recovery, and mitigation activities. Funds may be used to support the 
purchase of critical medical supplies including medications and 
equipment, training, and exercises to prepare for and respond to mass 
casualty incidents. Within FEMA's recently released fiscal year 2014 
preparedness grant program funding opportunity announcements, mass 
casualty incident preparedness and response was emphasized to stress 
the activities that build capabilities surrounding immediate emergency 
victim care. This includes:
  <bullet> Improving emergency care to victims of mass casualty events, 
        including mass shootings;
  <bullet> Improving community first aid training;
  <bullet> Enhancing the integration of local emergency management, 
        public health, and health care systems into a coordinated, 
        sustained, local capability to respond effectively to a mass 
        casualty incident;
  <bullet> Demonstrating how grantees' investments will increase the 
        effectiveness of emergency preparedness planning and response 
        for the whole community by integrating and coordinating 
        activities for vulnerable populations including children, the 
        elderly, pregnant women, and individuals with disabilities and 
        others with access and functional needs;
  <bullet> Encouraging collaboration with local, regional, and State 
        public health and health care partners; and
  <bullet> Encouraging engagement in preparedness efforts across first-
        responder community, including EMS for response to catastrophic 
        events and acts of terrorism.
    With support from FEMA's preparedness grant funds, Boston has 
purchased tourniquets for all first responders, and EMS units carry the 
quick clot gauze. We are aware of plans to have kits that include 
multiple tourniquets and quick clot gauze strategically positioned at 
special events for quick deployment in the event of an incident.
    Question 4. In November, I requested an independent review of 
Massachusetts' new flood maps by two coastal scientists affiliated with 
the University of Massachusetts--Dartmouth's School of Marine Science 
and Technology and Applied Coastal Research and Engineering, 
specifically using the town of Marshfield as a test case. Their 
findings, detailed in a White Paper, indicated that FEMA used a mapping 
method tailored for the Pacific Coast instead of developing one correct 
for New England. As a result, FEMA likely over-predicted flooding that 
would occur during a 100-year storm for much of the State. The town of 
Rockport's recent successful appeal on the basis of demonstrating that 
there was more accurate scientific data available is further evidence 
that the new flood maps must be fixed. Homeowners have a right to know 
that FEMA is using the best available scientific technology when 
drawing the flood maps. I ask that FEMA work with us on a plan to fix 
the Commonwealth's flood maps utilizing the best available scientific 
data that is appropriate for our geographic region or suspend the new 
flood maps until a decision is made to amend them. Too much is at stake 
for our homeowners and communities to not get this right. Can you 
please elaborate on what methods FEMA is utilizing to certify to 
communities that these maps are drawn using the best available 
scientific models?
    Answer. The goal of the coastal Flood Insurance Rate Map updates in 
Massachusetts is to provide our communities with credible flood hazard 
and risk information on which they can make sound mitigation and 
insurance decisions. Throughout the early stages of the coastal Flood 
Insurance Study, FEMA engaged community officials and State partner 
agencies to ensure the best available local data was used. Engaging 
local officials to incorporate locally-available data and using 
scientifically-credible methodologies helps to ensure that the flood 
hazard information portrayed on the Flood Insurance Rate Maps 
represents an accurate characterization of local flooding conditions.
    Once the preliminary Flood Insurance Rate Map information is 
developed, FEMA releases this information for public review and holds a 
formal appeal period during which additional information may be 
submitted through the community to refine the preliminary flood maps. 
If an alternative methodology is available and meets certain standards, 
it can be accepted for use in the Flood Insurance Rate Maps. As you 
note, the town of Rockport recently submitted modeling that follows an 
alternative approach that meets appropriate technical standards. While 
this approach does not negate the results determined as part of the 
FEMA analysis, we reviewed it and were able to incorporate it into the 
on-going update for the town of Rockport.
    The Rockport example is a model of successful coordination between 
FEMA and local communities because they submitted an alternative 
approach in a timely manner; FEMA is actively working through a similar 
process with the State and other Massachusetts communities.

                                 [all]

</pre></body></html>
